Michael A. Bruzzone
3766 Via Verdi, Richmond, CA 94803
Representing Self, Campmkting@aol.com
(415)250-4652
In the UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
)

Michael A. Bruzzone
Petitioner - Appellant
v.

) 9th Cir. Case No.: 20-15326
)
)
)
)
)
)

)
Intel Corporation, in concerted action with
|
ARM Holdings pic and ARM Inc.
)
executives and their attorneys; et al.,
)
)
Defendants - Appellee
)
\
\
{
)
)
^
)
)
)
^
)
^
)
\
)
)
)
)

D.C. No 2:18-cv-0865-KJM-DB
Eastern District California, Sacramento
Petitioner Statement that
Appeal Should Go Forward.
Petitioner Response to 9th Circuit
reflection on claims that are denied
discovery, denied confrontation at
Constitution 14th, where claims on
law validate appeal is earnest, forthright in good faith; not frivolous at
28 USC § 1915(e)(2). Cognizable at
15 USC § 15 and 18 USC § 1962c at
42 USC § 1981(a)(b) on deprivation
of civil rights under color of law seen
on defendant concert acts to deprive
rights in bad faith at FRCP 60(b)(3).
On defendants concert manipulation
with law enforcement subject FRCP
60(d)(3) fraud onto court vicariously
pursuant 42 U.S.C. § 1985 (1)(2)(3)
intends on conduct to obstruct at 18
USC §§ 1505,1510,1512,1513,1516,
1519 concealing 25 yr organized crime
infiltration of Intel Corp & ARM Inc.
Attention Clerk of the 9th Circuit, and
c/o; Clerk of Court, Matsui Courthouse.
Sacramento, California
attn; Chief Judge Kimberly Mueller at
Courtroom 3, 15th Floor and Magistrate
Judge Deborah Barnes, Courtroom 27,
8th Floor

35

TABLE OF CONTENTS
Page
INTRODUCTION - APPEAL SHOULD GO FORWARD
DATE(s) of ENTRY JUDGMENT / ORDERS CHALLENGED

6
6-7

- Judges are mistaken?
- Addressing contention frivolous. . .
SITUATION ASSESSMENT - defendant ‘bad faith’ conduct

8-10

- Appeal question on error, “defendants have not established beyond
doubt plaintiff can prove no set of facts in support of claim[s] for
relief’; Conley v Gibson, 355 U.S., 41, 45 (1957). Nor is matter
frivolous, “if at least one issue or claim is found to be non frivolous,
leave to proceed in forma pauperis on appeal must be granted”
Dixon v. Pitchford, 843 F.2d 268, 270 (7th Circuit 1988)
VENUE and FORUM challenged at FRCP 12(b)(3)

10-12

- Eastern District venue is proper at 15 U.S.C. §§ 15, 22
- Eastern District forum is proper on significant contact
ON FORMA PAUPERIS said FRIVOLOUS at FRCP 12(b)(6)

12-13

CLAIMS RAISED at 15 U.S.C. §§ 1, 5, 15 and 18 U.S.C. §§ 1962c, 1964c

13-20

1) Promoting industry boycott and legal blacklist at 15 U.S.C. §§1,2
2) Defamation; knowing placement in false light at FRCP 60(b)(3)
3) Paid from & to conceal industry & consumer robbery at 18 U.S.C. § 1962c
4) Interference in business advantage; slander and libel at CCC §§ 45, 46
5) Intent to conceal, aid, abet theft at 18 U.S.C. §§ 2, 3, 4, 371, 641, 1341
6) Criminal act; preparing, presenting falsities in court at FRCP 60(b)(3)
7) Jurist scheme to deny rights at 42 U.S.C. § 1981 and FRCP 60(d)(3)
PETITIONER CLAIMS ARE SUBSTANTIAL
- Test for federal question jurisdiction is a threshold legal inquiry.

20-21
22

- Test for statement of federal claim is searching examination.

22-23

IN CONCLUSION

23-24

Searching examination of claims is withheld or negated; remand
to Eastern District for whole claims adjudication resolves errors
- Standards of review; clearly erroneous, objective, federal statute
and case law assessment, substantial evidence de novo
36

PERTINENT FEDERAL STATUTES
15 U.S.C. § 1 group boycott; § 2 intent; § 5 investigation; § 15 standing, § 22 venue
18 U.S.C. § 1962c civil RICO harm, § 1964c standing
28 U.S.C. § 1915(a)(c)(e)(2) appeal questions
32 U.S.C §§ 3279, 3730(b)(l)(c)(3) theft, obligation, standing
RELATED STATUTES
18 U.S.C. §§ 2, 3, 4, 371, 641, 1341 theft
18 U.S.C. §§ 1001, 1505, 1510, 1511, 1512, 1513, 1516, 1519, 1956, 1961
obstruction
FEDERAL RULES OF CIVIL PROCEDURE
FRCP 11(1 )(3) proper verse improper presentation, evidence, opportunity for
discovery
Rule 12(b)(3)(b)(6) venue and claims
Rule 60(b)(3)(d)(3) defendant frauds deliver disablement of justice process
UNITED STATES CONSTITUTION
1st speech & association, 5th equal protection, 9th retained by people, 14th due process
CALIFORNIA CIVIL & PENAL
CCC 45, 46 slander and libel
CPC §118 perjury
CPC 132, 134 preparing and presenting false evidence
TREATISE
Chief Judge Jacob Henry Friendly, Some Kind of Hearing, Second Circuit

37

TABLE OF FEDERAL & STATE AUTHORITIES primary denoted in BOLD
Abatti v C.I.R., 859 F.2d 115, 118 (9th Cir. 1988)
Alexander v. Fulton County, 207 F.3d 1303, 1326 (11th Cir. 2000)
American Tobacco Co. v. United States, 318 U.S. 781 (1946)
Ashcroft v Iqbal, 566 U.S. 662,679 (2009)
Atlantic Richfield Company v Farm Credit Bank, 226 F.3d 1138,1160 (10th Cir.
2000)
Bauman v United States District Court, 557, F.2d 650 (9th Cir. 1977)
Bell Atlantic Corp. v Twombly, 550 U.S. 544, 570 (2007)
Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971)
Boyce v Alizaduh, 595 F.2d 948, 951-52 (4th Cir. 1979)
Braverman v United States, 317 U.S. 49, 53 (1942)
Broadcom v. Qualcomm Inc., 501 F.3d 297, 306 (3d Cir. 2007)
Celotex Corp., v Catrett, 477 U.S. 317,324,106 S.Ct 2548,2553,91 L Ed.2d 265
(1986)
Chambers v NASCO, Inc. 501 32 (1991)
Cherry St., LLC, v Hennessee Group LLC, 573 F.3d 98 (2nd Cir. N.Y. 2009)
Concrete Pipe & Products v. Construction Laborers Pension Trust, 508 U.S. 602, 623
(1993)
Conley v. Gibson 355 U.S. 41 (1957)
Dixon v. Pitchford, 843 F.2d 268, 270 (7th Circuit 1988)
Flores v United States, 698 A.2d 474 (D.C Ct. App. 1997)
Franklin v Murphy, 745 F.2d 1221, 1227-28 (9th Cir. 1984)
Franklin v Oregon, 662 F.2d 1337, 1342-43 (9th Cir. 1981)
FTC v Cement Institute, 333 U.S. 683 (1948)
t\

38

L\

GESInc. v Corbitt, 17 Nev, 265, 250-71, P.3d 11, 15 (2001)
Global-Tech Appliances, Inc., v SEB S.A., Supreme Court of United States, Certiorari
to U.S. Court of Appeals Federal Circuit No 10-6; argued February 23, 2011
Gonzales v United States 354 U.S. 59 (1960).
Grenier v Taylor (2015) 234 Cal.App.4th 471, 486 [183 CalRptr.3d 867]
Haeger v Goodyear Tire and Rubber Company, No. 12-17718 at 57, (9th Cit. 2017)
Hazel-Atlas Glass Company v Hartford Empire Co., 332 U.S. 238 at 245-46,250
(1944)
Hilton v Hallmark Cards, 599 F.3d 894
Hooker v American Airlines, 302, F.3d. 1091,1092 (9th Cir. 2002)
Hurtado v California, 110 U.S. 516, 528-29 (1884)
International Boxing Club, 348 U.S. 236, (1955)
Jenkins v. McKeithen, 395 U.S. 411,421 (1969)
Kelly v Boeing, 9 F.3d 743, 748 (9th Circuit 1993)
Kush v Ruteledge, 460 U.S. 719,103 S Ct at 1487 (1983)
Lawrence v U.S., 482 A.2d 374,377 (D.C. 1984)
Leon v IDXSys. Corp., 464 F.3d 951 at 961 (9th Cir. 2006)
Malhiot v S. Cal Retail Clerks Union, 735 F.2d 1133,1137 (9th Cir. 1984)
Neitzke v Williams, 490 U.S. 325 (1989)
New.Net Inc. v Lavasoft 355 F.Supp. 2d 1090, 1098 (C.D. Cal 2004)
Nizam-Aldine v. City of Oakland, 47 Cal. App. 4th 364 (Cal. Ct. App. 1996)
Pearl Brewing co., v Anheuser Busch Inc., 339 F. Supp. 945, 950-951 (S.D. Tex
1972)
Poller v Columbia Broadcasting Sys., 368 U.S. 464,373 (1962)
Primus Auto. Fin. Services Inc., v Batarse, 115 F.3d 644, 648 (9th Cir. 1997)
39

Pumphrey v K. W Thompson Tool Company, 62 F.3d 1128, 1130 at 1132 (9th Cir.
1995)
Salinas v United States 522 U.S. 65 (1997).
Schuer v Rhodes, 416 U.S. 232, 236, (1974)
Smith v. Maldonado, 72 Cal.App.4th 637, 646& n.5 (Cal. Ct. App. 1999)
Springer v U.S, 388 A.2d 846,854 (D.C. 1978)
Spurr v United States, 174 U.S. 728, 735
Standard Oil co. v Moore, 251 F.2d 188 (9th Cir. 1957)
United States v Kissel, 218 U.S. 601 (1910)
United States v. Throckmorton 98 U.S. 61, (1878)
Universal Oil Products Company v Root Refining Company, 328 U.S. 575,580
(1946)
Vermont Agency ofNatural Resource v United States ex rel, Stevens 529 U.S. 765
(2000)
Watson v Ault, 525 F.2d 886, 891-92 (5th Cir. 1976)
Whitmore v Arkansas, 495 U.S. 149, 155
Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981)
WongvJing(2010) 189 Cal.Ap.4,h 1354, 1369 (117 Ca.Rptr.3d 747)
Wong Yang Sung v McGrath, 339 U.S. 50 (1950)
'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k’k’k'k'k'k'k'k'k'k’k'k'k'k'k'k'k

INTRODUCTION - APPEAL SHOULD GO FORWARD
Ninth Circuit “reflects” on Petitioner’s [legal grounds] “arguable basis in law”,
for this appeal seeking panel hearing pursuant 1) Eastern District as the proper venue
at FRCP 12(b)(3) and, 2) defendant’s inability (thought fakery on continued negation)
to comprehend [or come to grips] at FRCP 12(b)(6) with plaintiff claims defendants
understand. Defendants attempt sham meaning to obstruct. Where case dismissal
40

demonstrates judgment error(s) and correction remands matter back to Eastern
District for whole claim’s adjudication. That simple act will send this case matter to
settlement negotiation.
DATE(s) of ENTRY JUDGMENT / ORDERS CHALLENGED
Plaintiff-Petitioner raises question of extra judicial interference seen in ‘clear
error’, Chief Judge Kimberly Mueller’s ORDER of February 12, 2020 a
determination 1) “action is frivolous” [denying confrontation]; at 2) “defendant Intel’s
motion to dismiss is granted; 3) defendant ARM’s motion to dismiss is granted; 4)
April 30, 2019 2nd amended is dismissed without leave to amend.” Further, that
Magistrate Judge Deborah Barnes earlier ORDER of April 2, 2019 too submit 2nd
amended appears unnecessary in relation the original complaint. According to Judge
Barnes at footnote 5, page 8, “second amended complaint is arguably less intelligible
than the original”. Judge infers a question? Through three Eastern District Complaint
submissions, adding on top of the 22 year case record of Plaintiff notices, federal
reports & briefings, “enough facts to state a plausible claim on its face” are well
established, Bell Atlantic Corp. v Twombly, 550 U.S. 544, 570 (2007). Thereby, on
“reasonable inference defendants [are] liable for [their] misconduct”, Ashcroft v Iqbal,
566 U.S. 662, 679 (2009)

Addressing the contention frivolous, “a complaint is

legally frivolous when it lacks an arguable basis in law or fact; “Neitzke v Williams,
490 U.S. 325 (1989). Rather, Petitioner succinctly details cognizable nature of his
factual claims on Constitution, statute, case law and federal discovery. Bruzzone
contends seven years of notice, most recent filing in Eastern District, any Court
ORDER to amend pleadings might support extra judicial actors squeezing
41

L\

Justice, from defendant’s sham litigation. Includes Intel Corp. legal department
failing to disclose the Entities antitrust compliance failures to United States Dept, of
Justice, Bruzzone discovery as FTC Docket 9341 attorneys aid, frustrating the
possibility of specific performance. Part(s) of this sordid scheme of deliberate misuse
of judicial process designed to crush [Bruzzone] witness, federal, States & ‘lawful
class’ price fix claim(s)” on legal fraudsters attempting escape. Defendants joint
defamation promotes Bruzzone obloquy, industry and legal service market group
boycott, employment blacklist, marks as prey for hunting by known and concealed
detectives and informants that is well documented in the record; reference to Haeger
v Goodyear Tire and Rubber Company, No. 12-17718 at 57, (9th Cit. 2017) on remand
from U.S. Supreme Court, 137 S.Ct 1178 (2017) and Chambers v NASCO, Inc. 501
32 (1991) is a law enforcement fiasco (stall) on lagging investigation of its corporate
cover up where accomplice after the fact presents added remedial hurdles.
“Inherent power of a federal court to investigate whether a judgment was
obtained by fraud is beyond question.” Universal Oil Products Company v Root
Refining Company, 328 U.S. 575, 580 (1946) (citing Hazel-Atlas Glass Company v
Hartford Empire Company, 332 U.S. 238 (1944). “[a] party demonstrates bad faith by
delaying or disrupting the litigation”, Primus Auto. Fin. Services Inc., v Batarse, 115
F.3d 644, 648 (9th Cir. 1997), “by going to extraordinary measures to destroy
evidence”; Leon vIDXSys. Corp., 464 F.3d 951 at 961 (9th Cir. 2006). To (1) prevent
an officer of the United States from performing his/her duty, (2) [in a] corporate
political conspiracy to obstruct justice in federal and state courts, (3) intended to

44

deprive victims of equal protection, equal privileges and immunities”; Kush v
Ruteledge, 460 U.S. 719, 103 S Ct at 1487 (1983).
Actions constituting frauds upon the court or that cause “the very temple of
justice [to be] defiled” are sufficient to support a bad faith finding.” Chambers, 501
U.S. at 46. Under Federal law "court may at anytime set aside a judgment for [after]
discovered fraud upon the court... the orders and judgment of that court are void, of
no legal force or effect; Hazel-Atlas Glass v. Hartford Empire, 322

U. S. 238

(1944). "Courts of the United States will not deprive a party of the benefit of a
judgment on account of intrinsic fraud,” United States v. Throckmorton 98 U.S. 61,
(1878), id. Haeger v Goodyear Tire and Rubber Company.
Eastern District failed to fully investigate Petitioner-Plaintiffs claims of fraud
by negating movement to discovery and entry of minimally affirmative evidence from
whole case record. Raises appeal questions on Eastern District error(s), “defendants
have not established beyond doubt that the plaintiff can prove no set of facts in
support of his claim[s] for relief’; Conley v Gibson, 355 U.S. 41, 45 (1957); Iqbal
quoting Twombly, does and appears meant to deflect from defendant’s fraudulent
conduct buffering witnesses.

PURSUANT FRCP 12(b)(3) VENUE and FORUM
Eastern District is a proper venue on Plaintiff claims in relation defendants
FRCP 60(b)(3) frauds for FRCP 60(d)(3) disablement of justice process Bruzzone is
exposed too for the prior seven years, in Northern California District; may be so
mired, damaged and or prejudiced in ways not correctable in Northern District. Where
Northern District court’s orders can be shown clearly erroneous as a mater of law,
45

1\

making off repeated error(s), manifests a persistent disregard for the federal rules and
raises new and important problems, or legal issues of first impression; Bauman v
United States District Court, 557, F.2d 650 (9th Cir. 1977). Petition Writ for Certiorari
notices U.S. Department of Justice, Congress subject United States Supreme Court
review on August 23, 2017 (17-6008 denied) and again April 27, 2020 waiting
answer (19-8455) concerns judicial contract taking at Constitution 5th and separation
of power question(s) Judge William Alsup operating beyond the jurisdiction of the
District Court Judge at 28 U.S.C. § 1345(a)(2)(b)( 1) interference in qui tarn valued

>

$10,000.
Pursuant Eastern District reflection, at 15 U.S.C. § 15; “Any person who shall
be injured in his business or property any reason of anything forbidden in the antitrust
laws may sue therefore in any district court of the United States in the district in
which the defendant resides of is found or has an agent”. At 15 U.S.C. § 22; “Any
suit, action, proceeding under antitrust laws, against a corporation may be brought not
only in the jurisdiction whereof it

is an inhabitant, but also in any district wherein it

may be found [at 1900 Prairie City Road, Folsom, CA 95630] or transacts business”.
On significant contact at 28 U.S.C. § 1391(d) Mr. Abel Tenorio of Intel Corp.
security department is Bruzzone investigative contact works from Intel Folsom
campus is a witness in matter. Eastern District courthouse is conveniently located to
Intel Folsom campus. ARM Holdings, pic is a defendant of foreign origin at 28
U.S.C. § 1391(c)(3).
Eastern District forum is proper; Intel Corporation’s Mr. D. Jason Bagley,
Director Government Relations and his predecessor Mr. Johnathan Williams, Director
46

f

State and Local Government Affairs operate specifically from Intel Folsom facility in
relation to California Department of Justice liaison and through interference at FRCP
60(b)(3) and 42 U.S.C. § 1983. Concerns Bruzzone discovery for California
Department of Justice Antitrust division thought law enforcement manipulation by
Intel Corp. executives, detectives & agents intent to negate Bruzzone investigative
findings of industrial espionage(s), pursuant CDOJ March 2000 lettered “work
report” role to Antitrust division begins March 1999 and ends May 2007. “Industrial
spy” concern is raised by then Attorney General Mr. William Westwood Lockyer on
January 5, again in May 2007. CDOJ is a witness in the matter proximately located to
Eastern District Matsui courthouse. California Government Claims is noticed

many

times and again acknowledges potential service of summons on February 20, 2019.
ON FORMA PAUPERIS and/or FRIVOLOUS at FRCP 12(b)(6)
Here and now for the limited purpose of determining whether in forma
pauperis status should be granted and whether the appeal is frivolous or taken in bad
faith see 28 U.S.C. § 1915(a)(c)(e)(2) and Hooker v American Airlines, 302, F.3d.
1091, 1092 (9th Cir. 2002); “revocation offorma pauperis status is appropriate where
district court finds the appeal to be frivolous.” “An appeal is frivolous if the result is
obvious or if the claims of error are wholly without merit”, Malhiot v S. Cal. Retail
Clerks Union, 735 F.2d 1133, 1137 (9th Cir. 1984). Addressing Hooker, pursuant
'xon v. Pitchford, 843 F.2d 268, 270 (7th Cir. 1988), “If at least one issue or claim is
to be non frivolous, leave to proceed in forma pauperis on appeal must be
&

x

\

47

Per Petitioner-Plaintiff 2:18-cv-00865 counter defamation claim “not
vexatious” on defendants vexing motion to so damn, is determined by Judge Mueller
on Judgment in case date February 13, 2020 “denied”. Follows findings &
recommendation of Magistrate Judge Barnes dated December 16, 2019; “plaintiffs
filings have not been inordinate, abusive, in reckless disregard of the orders of this
court when compared to other pro se actions that come before the undersigned.”
Pursuant Bruzzone Eastern District motion of March 2, 2020 seeking approval
to proceed in Ninth Circuit forma pauperis, Chief Judge Mueller issues a minute
order on March 13, 2020 stating “DENIED without prejudice. Plaintiff may renew his
request in the circuit court upon filing of an appeal”; attached in exhibit.
CLAIMS RAISED
Pursuant Petitioner-Plaintiffs seven additional [unheard] claims are
somehow overlooked lacking equal protection on due process, confrontation,
affirmative evidence trapping defendants within whole case record, federal and State
discovery denied entry and somehow overlooked suspect FRCP 12(b)(6) judgment
error. “Confrontation clause is violated when a “trial court” precludes a meaningful
degree of cross examination”, Springer v U.S., 388 A.2d 846, 854 (D.C. 1978).
Curtailment of cross examination is rendered more severe when a government witness
is involved; under such circumstances, extensive cross examination . . . [is] required
to satisfy the confrontation guarantee; Lawrence v U.S., 482 A.2d 374, 377 (D.C.
1984). The right to cross examine is a part of fundamental due process to which all
parties are entitled for a full and fair hearing” Flores v United States, 698 A.2d 474
(D.C Ct. App. 1997).
48

An analysis made by the late Judge Jacob Henry Friendly (1903 - 1986) of
United States Court of Appeals for Second Circuit, 1959 through 1974, including as
Chief Judge from 1971 through 1973, in his "Some Kind of Hearing," generated a
list that remains influential as to the content and relative priority Bruzzone has rarely
experienced pursuant equal protection by confrontation;
1. An unbiased tribunal.
2. Notice of the proposed action and the grounds asserted for it.
3. Opportunity to present reasons why proposed action should not be taken.
4. The right to present evidence, including the right to call witnesses.
5. The right to know opposing evidence.
6. The right to cross-examine adverse witnesses.
7. A decision based exclusively on the evidence presented.
8. Opportunity to be represented by counsel5
9. Requirement that the tribunal prepare a record of the evidence presented.
10. Requirement written findings of fact and reasons for decision.
On defendant’s tortuous interference; promoting boycott, blacklist, intentional,
contractual, prospective economic, denying horizontal by vertical by horizontal price
fix, civil and criminal RICO, at California Cartwright and federal Clayton Act,
“summary procedures should be used sparingly” because proof is largely in the hands
of the alleged conspirators” Carr Carriers, 745 F.2d at 1106; quoting Poller v
On interference by defendants falsely portraying Petitioner-Plaintiff “Not a [qui tam]
relator” and “vexatious litigant of frivolous claims”, creates question promoting
legal service market boycott. Whereas (false) evidence defendants plant into case
record does crush the truth.
49

Columbia Broadcasting Sys., 368 U.S. 464, 373 (1962). On federal and States
discovery conspiracy is established because the organized acts across the individual
actors are criminal; FTC v Cement Institute, 333 U.S. 683 (1948).
1)

At Constitution 9th, at 15 U.S.C. § 15 and 18 U.S.C. § 1962c, 31 U.S.C.

3730(b)(l)(c)(3) and Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971);
Intel Corp., ARM Holdings and ARM Inc., and associate attorneys through 22 years
maliciously promote this investigating federal civic servant’s industry, jurist, legal
service market trade blacklist. Securing group boycott on defendant’s defamatory
portrayals are constructed to place plaintiff into question; into obloquy on defendant’s
damning false light citing “no monopoly harm”, while portraying Petitioner
“vexatious, harassing, dangerous, paranoid delusional, not [qui tarn] relator, that the
United States is no way involved [in Bruzzone qui tarn filing(s)]” all of which are
false and manufactured by defendants and their fixers.
2)

Incorporating, attempt to disqualify fact of a federal antitrust

investigation’s affirmed discovery on plaintiff supporting audit, too paint that
federally enlisted auditor unbelievable does mark for hunting by law enforcement
through defendants detectives, mercenaries, hooligans and informant interference
including conditioning Petitioner into depression. Punishing this federal auditor for
providing his report’s too respective federal agencies; USDOJ, FTC, FBI,
communicating his discoveries for industry awareness, public, government
transparency, Congress address and his personal protection. All the while doing the
job federal attorney’s enlisted him: FTC attorney Mr. Robert Cook, California
Attorney General Mr. William Westwood Lockyer, FTC Chairman Mr. William
50

Kovacic, FTC Chief litigator Mr. Robbie Roberston and United States Attorney
N.C.D. Mr. Joseph Russoniello.
3) Incorporating, Intel Corp. attorneys are paid from and to conceal the very
stolen funds Federal Trade Commission and California Department of Justice
attorneys enlist Mr. Bruzzone on industry witness in May of 1998, March of 2000,
again Q3 2008 to document, and on December 10, 2008 to recover thereafter affirmed
‘consumer theft’ on May 13, 2009 pursuant EUCC v Intel 37.990 antitrust decision
subject Intel Inside® “consumer avoidable” cost charge. Thereafter addressed among
December 16, 2009 FTC v Intel Corp. Docket 9341 complaint; “anticompetitive
arrangements” including “payments” for “consumer deceptive acts”. Subsequently
regulated by Docket 9341 consent order of October 29, 2010 for whom Bruzzone is
FTC consent order monitor designee. EUCC 37.990 thereafter affirms judgment on
June 12, 2014. Defendants and associate intent to deceive, manipulate, defraud mens
rea is established on federal discovery pursuant Federal Trade Commission v Intel
Corporation Docket 9341 whom Bruzzone is the federal discovery aid; see Cherry St.,
LLC, v Hennessee Group LLC, 573 F.3d 98 (2nd Cir. N.Y. 2009) and S.E.C. Rule lob5, here denying price fix ‘lawful class’ adjudication at 42 U.S.C. § 1981(a)(b). “A
party cannot actively induce infringement”, Global-Tech Appliances, Inc., v SEB S.A.,
Supreme Court of United States, Certiorari to U.S. Court of Appeals for Federal
Circuit No 10-6; argued February 23, 2011, Decided May 31, 2011. The “doctrine of
willful blindness is well established in criminal law . .. defendant’s cannot escape the
reach of these [criminal] statutes by deliberately shielding themselves from evidence
of critical facts that are strongly suggested by the circumstance”, Spurr v United
51

States, 174 U.S. 728, 735; “These requirements give willful blindness an appropriately
limited scope that surpass recklessness and negligence”.
4)

Incorporating, defendants do vicariously and maliciously interfere in

Plaintiffs business advantage, knowingly engage and promote their public
punishment’s harming in reputation and profession unreasonable to reasonable
persons. Defendants attempt and do

frame Plaintiff at industry events he’s invited as

analyst including Data Center Alliance, Semi Conference, ARM Techcon intent to
pillar Bruzzone publicly, threaten and to have arrested in retaliatory prosecutions
determined by Santa Clara County Criminal Ct Judge Richard Loftus, in #C 1495543,
“retaliation” thereafter dismissed in the name of Justice. Defendants publicize their
lies within industry and by slandering in court record knowing that act will libel
Petitioner in public news media; Casetext.com, Court Listener, Docket Alarm, EE
Times, Find-A-Case, Fear Not Law, Juralindex, Justia Dockets & Filings, Leagle,
Pacer Monitor, Unicourt, specific individuals participating in the Seeking Alpha stock
board all republish or mimic in some forms defendant’s false, misleading and
damning portrayals.
“Defamation is the intentional publication of a statement of a fact that is false,
unprivileged, has a tendency to injure or that causes special damage”, Grenier v
Taylor (2015) 234 Cal.App.4th 471, 486 [183 CalRptr.3d 867]. “The elements of
defamation are 1) publication that is 2) false, 3) defamatory, 4) unprivileged, and 5)
has a natural tendency to inure or causes special damage”, Wong v Jing (2010) 189
Cal.Ap.4th 1354, 1369 (117 Ca.Rptr.3d 747],

52

5)

Incorporating, intent on conduct to conceal, aid and abet ~ 4.6 billion

Intel Inside® consumer robberies (valued on average $10 each) occurring along
highways of commerce compounds on defendant concealments associate’s collection
of unlawful debt subject 15 U.S.C. §§ 1, 2 and 18 U.S.C. § 1956. Is secured on Intel
combining contracts for ‘registered kick back’ payments sustaining a tied cost-charge
‘end sale’ system of Intel brand fee reward(s) for consumer discriminatory pricing
subject Intel processor channel discharge flow’s metering. Intel reoccurring kick back
is paid to computer sales outlets metering for Intel report every next processor sale
subject 18 U.S.C. § 1956 and 18 U.S.C. 1962c; are
PC Supplier, media direct, retail direct purchase is Bruzzone Docket 9288 & 9341
discovery.
6)

Incorporating, Intel Corporation Legal Department false certification of

(a) no Intel Inside® end buyer price fix harm, and (b) legal departments 25
consecutive year false certification of antitrust compliance to U.S. Department of
Justice under said 1993 order are Bruzzone discoveries for Federal Trade Commission
v. Intel Corp. Docket 9288 and 9341 at 15 U.S.C. § 5 investigations, and (c) that
Plaintiff claims of Intel Inside® price fix and defendant punishing disparagements are
not true, and (d) that Plaintiff somehow harms and harasses Intel presenting a
“dangerous paranoid delusional” threatening to Intel Corporation and Intel
cooperating agents who include various media cartel and executives of ARM
Holdings pic, ARM Inc, the detectives they employ including Paragon Security,
Creative Security Solutions, Burke Brothers, others Bruzzone is aware and has
reported including among the Softbank Ziff Davis masked defendants.
53

Racketeers fear Bruzzone as a federal witness, investigator and auditor. The
fear of being trapped within their own organized crime involvement can be
understood. However Bruzzone is not the cause of their fear. Caught participating in
criminal acts is the cause of their fear. Bruzzone objects made a whipping boy by the
same conspirators targeting him in retaliations, attempting to alleviate their
prosecutorial fears including in the after mass at 18 U.S.C § 3 reversing their own
harms onto Bruzzone maliciously and vicariously. As a matter of law, in cases
involving public figures or matters of public concern, the burden is on the plaintiff to
prove falsity in a defamation action. Nizam-Aldine v. City of Oakland, 47 Cal. App.
4th 364 (Cal. Ct. App. 1996). In cases involving matters of purely private concern, the
burden of proving truth is on the defendant. Smith v. Maldonado, 72 Cal.App.4th 637,
646& n.5 (Cal. Ct. App. 1999). When the burden is technically on the plaintiff to
prove falsity, the plaintiff can easily shift burden to the defendant simply by testifying
that the statements at issue are false. Defendant reliance on California ANTI-SLAPP
at CCP §§ 425.16, 425.17, 425.18 for purpose of slandering to libel, in these matters,
lead public party Mr. Bruzzone is at 42 U.S.C. § 1981(a)(b) “lawful” class advocate
verse Intel Corp. associate lawless crime network has no ground [too stand] on AntiSLAPP claim where Bruzzone speech is protected enlisted in federal and state
agency; Hilton v Hallmark Cards, 599 F.3d 894 (2010); New.Net Inc. v Lavasoft 355
F.Supp. 2d 1090, 1098 (C.D. Cal 2004).
To prevail in an action claiming civil conspiracy, a plaintiff must prove
agreement between tortfeasors, whether explicit or tacit see GES Inc. v Corbitt, 17
Nev, 265, 250-71, P.3d 11, 15 (2001). Where under federal standard 18 U.S.C. §
54

1001 a( 1 )(2)(3) making false statements, knowingly and willfully makes false or
fraudulent statements, concealing information “in any jurisdiction” of the federal
government of the United States, even by mere denial are proofs. “Conspiracy is an
agreement, tacit or explicit, expressed or implied, between two or more parties to
accomplish an unlawful objective or to accomplish a lawful objective by unlawful
means”; Pearl Brewing Co. v Anheuser Busch Inc., 339 F. Supp. 945, 950-951 (S.D.
Tex 1972) citing United States v Kissel, 218 U.S. 601 (1910); American Tobacco Co.
v. United States, 318 U.S. 781 (1946); Standard Oil co. v Moore, 251 F.2d 188 (9th
Cir. 1957).
7)

Incorporating, Intel Corp. and ARM Inc. attorneys and their fixers

prepare and present at 18 U.S.C. § 1001a (1)(2)(3) is their vicarious concert scheme,
at FRCP 60(d)(3) jurist and attorneys fraud at California Penal Code §§ 118, 132, 134
do manufacturer false said evidence into pleadings, petitions including for injunction
and injunction renewal over an 18 year period, include falsities in sworn declarations,
including sworn declaration(s) of Dr. Harley Stock affiliate agent of FBI and Secret
service who is an Intel consultant, paid by Intel to destroy evidence, construct, falsify,
misrepresent, recruit associated fixers Dr. Paul Berg in particular and thereby do
mislead portraying plaintiff “unbelievable” a “paranoid delusional”, “employment
risk”, “harasser”. Pursuant ARM Inc. furtherance in Santa Clara 16-CH-007219
Petition for Injunction “criminally harassing” and where ARM witness Ms. Sparks
testifies only “annoying.”
A complaint needs only contain sufficient factual matter to “state a claim to
relief plausible on its face”, Ashcroft v Iqbal, 129 S.Ct. 1937, 1949 (2009). In
55

evaluating such “factual matter,” allegations are construed in light most favorable to
the plaintiff and all facts are assumed true, Broadcom v. Qualcomm Inc., 501 F.3d
297, 306 (3d Cir. 2007). A Party .. must affirmatively demonstrate by specific factual
allegations that there is a genuine issue of material fact for trial Celotex Corp., v
Catrett, 477 U.S. 317, 324, 106 S.Ct 2548, 2553, 91 L Ed.2d 265 (1986). Bruzzone
has met this bar pursuant E.D. 00865. Raises FRCP 12(b)(6) appeal question of
Eastern District error, denying confrontation “defendants have not established
beyond doubt that the plaintiff can prove no set of facts in support of his claim[s]
for relief’; Conley v Gibson, 355 U.S. 41, 45 (1957); Iqbal quoting Twombly.
PETITIONER CLAIMS ARE SUBSTANTIAL
Petitioner states meritorious claims raising questions that wait discovery and
entry of evidence in equitable hearing fully adjudicating claims. Much of that
evidence waits in United States Court of Northern California and Santa Clara
Superior Court of California clerk’s files, with other evidence sought, withheld by
Intel Corporation and ARM Inc., and the California Department of Justice, at FBI by
informant said Secret Service affiliate Mr. John Burke, on the defendants concert acts
to deny discovery, to both save face and obstruct validating extra-judicial and law
enforcement actors interference some of whom Bruzzone is directly aware
manipulating the case matter(s).
.Appeal on federal

controversy concerns;

1) the corporate political

opposition’s United States Constitution robbing 5th, 9th and in State of California 14th
amendment denials; 2) Intel Corporation attorneys reliance on California anti-SLAPP
[in federal court] to reverse onto Petitioner at U.S. Constitution 1st amendment said
56

speech associate harms onto federal defendant Intel Corporation. Where Petitioner is
in this matter the public party of interest at Constitution 9th “retained by the people”;
Congress of the United States and United States Department of Justice at 15 U.S.C.
§§ 5, 15 and 31 U.S.C. §§ 3730(b)(l)(c)(3). Contracted to investigate and recover
Intel Corp. “Intel Inside®” price fix procurement overcharge theft from the federal
government and for the people of United States recognized by thirty one States
Attorneys General. 3) Where petitioner claims documenting Intel Corp. and ARM
Inc., attorney’s frauds said FRCP 60(b)(3) violations; 4) parallel said 60(d)(3)
disablement of justice process by court officers including at United States Court
Northern California District; 5) to avoid the proximate federal statute violations at 18
U.S.C. §§ 2, 3, 4, 371, 641, 1341; and 6) Northern District Judge(s) 18 U.S.C. §
1001a(l)(2)(3) proximate involvement attempting to take Petitioner’s property that is
31 U.S.C. §§ 3729, 3730 contract obligation; Kelly v Boeing, 9 F.3d 743, 748 (9th
Circuit 1993) and Vermont Agency of Natural Resource v United States ex rel,
Stevens 529 U.S. 765 (2000). Many are defendants fraternal associates of Intel Bar
engaged in concert act’s that libel, portray “not relator”, Bruzzone false claims act
filing v Intel Corporation “non existent” attempting too quash this Petitioner
Plaintiffs Article 111 federal witness to a 25 year organized crime infiltration of Intel
Corporation and ARM Inc. And in relation Intel combined in media cartel, tens if not
hundreds on computer manufacturer producers and channel resellers of computers and
Intel x86 microprocessors.
Test for federal question jurisdiction is a threshold legal inquiry.
Petitioner controversy documents federal question on respondent association denying
57

15 U.S.C. § 15 and 18 U.S.C. § 1964(c) relief; for liberty, property, Plaintiff equal
protection on respondent vicarious conduct subject Constitution 5th their scheme to
misrepresent on manufacturer of false evidence at 18 U.S.C. § 1001a(l)(2)(3) means
to obstruct justice and swindle the federal government at 18 U.S.C. § 1341, extending
to States and Intel Inside® price fix plaintiff “lawful” class at 42 U.S.C. §§ 1981(a)(b)
on said

§ 1985(1)(2)(3) concert acts targeting Bruzzone federal advocacy that

supports class plaintiffs. Meant to quash the federal advocate would substantially
harm Intel Inside® price fix plaintiff class action. Through this seven year period of
conundrum to secure whole adjudication, Intel Inside® price fix procurement theft
grows by $8 billion dollars demonstrating “injury in fact”- a harm that is both
“concrete” and “actual . . . not conjectural or hypothetical”; Whitmore v Arkansas,
495 U.S. 149, 155. And where defendants 18 U.S.C § 1962(c) and 15 U.S.C. §§ 1, 2
motives are coordinated and “calculated to prejudice the public and unreasonably
restrain inter state commerce”; 231 F.2d at 623, International Boxing Club, 348 U.S.
236, (1955).
Test for statement of federal claim is searching examination. Petitioner
evidence waits entry in hearing is available from United States Court NCD and Santa
Clara County Superior clerk’s files. Evidence demonstrates opposition network intent
to deny Petitioner and similarly situated their United States Constitution 5 th and
pursuant State of California 14th amendment guarantees. Is documented on corporate
attorney conduct raises FRCP 60(b)(3) parallel the 60(d)(3) question thought
associate network, extra judicial and / or corporate political obstruction at 42 U.S.C.
§§ 1981(a)(b), in State § 1983, all encompassing

§1985(1)(2)(3). Passing claim
58

confers jurisdiction, Franklin v Oregon, 662 F.2d 1337, 1342-43 (9th Cir. 1981);
Schuer v Rhodes, 416 U.S. 232, 236, (1974).
Fourth, Fifth, Ninth Circuits state a frivolous claim is without arguable
substance in law or fact, Franklin v Murphy, 745 F.2d 1221, 1227-28 (9th Cir. 1984);
Woodall v Foti, 648 F.2d 268, 271 (5th Cir. 1981); Boyce v Alizaduh, 595 F.2d 948,
951-52 (4th Cir. 1979); Watson v Ault, 525 F.2d 886, 891-92 (5th Cir. 1976). Caught
in their sophistry rigging to prevent equitable hearing in District of Delaware,
Northern District of California, now proximate Eastern District of California can only
substantiate attorney’s concert FRCP 60(b)(3) fraud parallel vicarious disablement of
justice process to withhold Constitution guarantees and federal civil rights disabling
mechanics of justice process FRCP 60(d)(3).
To deny Petitioner appeal for lack of substance, on Bruzzone impoverished on
punishments by the opposition’s network of corporate attorneys, known and suspect
law enforcement,

detectives, informants, politico’s proximate judges would

substantiate said frauds; FRCP 60(b)(3), 18 U.S.C. § 1001 a( 1 )(2)(3), and just process
disablement at FRCP 60(d)(3), Constitution guarantee denials raising the criminal
civil right’s question at 18 U.S.C. §§ 241, 242.
IN CONCLUSION
Standards of review: clearly erroneous, objective, federal statute and case
law assessment, substantial evidence de novo; whether "district court has made a clear
error of judgment,” applied partial, incomplete or “incorrect legal standard";
Alexander v. Fulton County, 207 F.3d 1303, 1326 (11th Cir. 2000). “Review under
clearly erroneous standard is significantly deferential." Pursuant Concrete Pipe and
59

Products v. Construction Laborers Pension Trust, 508 U.S. 602, 623 (1993), the
appellate court must accept the trial court's findings unless it's left with the "definite
and firm conviction a mistake has been committed."
Standard of review on a motion to dismiss: de novo Atlantic Richfield
Company v Farm Credit Bank, 226 F.3d 1138, 1160 (10th Circuit 2000). A complaint
need only contain “a short and plain statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). This requires more than speculation and
reciting a claim’s elements, Bell Atlantic Corporation v Trombly 550 U.S. 544, 555
(2007). Instead alleged facts must nudge claims from conceivable to plausible
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A claim is plausible when it creates a
“reasonable inference” that the plaintiff is entitled to relief. Id.
On reasonable inference Plaintiff-Petitioners appeal can only proceed for
remand back to Eastern District for whole adjudication. So it follows a legal
proceeding enforced by public authority which regards and preserves the principles of
life, liberty, happiness must be held to due process of law”, Hurtado v‘ California, 110
U.S. 516, 528-29 (1884); “to present his case effectively”, Gonzales v United States
354 U.S. 59 (1960). When the Constitution requires a hearing it requires a fair one,
which meets the prevailing standards of impartiality, Wong Yang Sung v McGrath,
339 U.S. 50 (1950).
Submitted for filing to Clerk of Ninth Circuit, May 14, 2020

/s/

Michael Bruzzi

intiff-petitioner in pro se
60

X

, .

- ,20-15326

Page 1 of2

General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket #: 20-15326
Nature of Suit: 3410 Antitrust
Michael Bruzzone v. Intel Corporation, et al
Appeal From: U.S. District Court for Eastern California, Sacramento
Fee Status: Paid

Docketed: 02/27/2020
Termed: 07/02/2020

Case Type Information:
1) civil
2) private
3) null
Originating Court Information:
District: 0972-2 : 2:18-cv-0086S-KJM-DB
Trial Judge: Kimberly J. Mueller, Chief District Judge
Date Filed: 04/10/2018
Date Order/Judgment:
Date Order/Judgment EOD:
02/13/2020
02/13/2020

DateNOA Filed:
02/26/2020

Date Rec'd COA:
02/27/2020

MICHAEL A. BRUZZONE,
Plaintiff - Appellant,
v.
INTEL CORPORATION, in concerted action with ARM Holdings pic & ARM Inc. executives and their
corporate attorneys; ARM, INC.; ARM HOLDINGS,
Defendants - Appellees.
02/27/2020

J_ DOCKETED CAUSE AND ENTERED APPEARANCES OF COUNSEL AND
PRO SE APPELLANT. SEND MQ: No. The schedule is set as follows: Appellant
Michael A. Bruzzone opening brief due 05/04/2020. Appellees ARM Holdings,
*
ARM, Inc. and Intel Corporation answering’brief due 06704/2020.. Appellant's
optional reply brief is due 21 days after service of the answering brief, f 11611454]
-[Edited 02/27/2020 by RT] (RT) [Entered: 02/27/2020 02:36 PM]

03/02/2020

J2_ Filed clerk order (Deputy Clerk: CKP): Order to show cause docket fee due
[ 11614921 ] (CKP) [Entered: 03/02/2020 01:54 PM]

03/04/2020

_3_ Filed Appellant Michael A. Bruzzone motion to proceed In Forma Pauperis.
Deficiencies: None. [11618044] (RR) [Entered: 03/04/2020 01:33 PM]

03/12/2020

_4_ Received Appellant Michael A. Bruzzone notice of pending motion to proceed In
Forma Pauperis. [11629029] (NAC) [Entered: 03/13/2020 10:23 AM]

03/19/2020

_5_ Filed Appellant Michael A. Bruzzone motion to proceed In Forma Pauperis.
Deficiencies: None. [11637007] (NAC) [Entered: 03/20/2020 02:18 PM]

https://ca9-ecf.sso. dcn/cinecf/servlet/DktRpt?caseNum=20-15326&dateFrom=&datcTo=&...

7/30/2020

61

20-15326

04/22/2020

05/14/2020

07/02/2020

Page 2 of 2.

A Filed clerk order (Deputy Clerk: KWH): A review of the record reflects that this
appeal may be frivolous. This court may dismiss a case at any time, if the court
determines the case is frivolous. See 28 U.S.C. § 1915(e)(2). Within 35 days after the
date of this order, appellant must: (1) file a motion to dismiss this appeal, see Fed. R.
App. P. 42(b), OR (2) file a statement explaining why the appeal is not frivolous and
should go forward. If appellant does not respond to this order, the Clerk will dismiss
this appeal for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If
appellant files a motion to dismiss the appeal, the Clerk will dismiss this appeal,
pursuant to Federal Rule of Appellate Procedure 42(b). If appellant submits any
response to this order other than a motion to dismiss the appeal, the court may
dismiss this appeal as frivolous, without further notice. If appellant files a statement
that the appeal should go forward, appellees may file a response within 10 days after
service of appellant’s statement. The briefing schedule for this appeal remains
stayed. The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, and (2) a form statement that the appeal should go forward. Appellant
may use the enclosed forms for any motion to dismiss this appeal or statement that
....... the...appeal..should-go.ibrw:ard...j..U.668.03.7.]..(.WJ44En.tered.:..04/22/2020.08:.47..AM]-__
7_ Filed Appellant Michael A. Bruzzone response to order to show cause dated
04/22/2020. Served on 05/13/2020. [11691381] (QDL) [Entered: 05/14/2020 03:58
PM]
_g

Filed order (SUSAN P. GRABER, RYAN D. NELSON and LAWRENCE
VANDYKE) Upon a review of the record and the response to the court’s April 22,
2020 order, we conclude this appeal is frivolous. We therefore deny' appellant’s
motion to proceed in forma pauperis (Docket Entry Nos. [3] and [5]), see 28 U.S.C. §
1 915(a), and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2)
(court shall dismiss case at any time, if court determines it is frivolous or malicious).
DISMISSED. [11741232] (WL) [Entered:.07/02/2020 02:58 PM]
2

07/14/2020

9

Filed Appellant Michael A. Bruzzone motion to alter or amend judgment pursuant
FRCP 59(a)(1)(b) subject to FRCP 60(b). Deficiencies: No certificate of service.
[11755244] (RR) [Entered: 07/16/2020 12:13 PM]

07/14/2020

10

Filed Appellant Michael A. Bruzzone motion to stay the mandate. Deficiencies: No
certificate of service. [11755246] (RR) [Entered: 07/16/2020 12:14 PM]

07/14/2020

11

Received Appellant Michael A. Bruzzone notice of certificate of service re :FRCP
59. [1175541 5] (RR) [Entered: 07/16/2020 01:29 PM]

SeA f>|L

>^3

07/14/2020---.13 -Rcceiyed-noti1Icatronii-on i-ApireiIam Mtchael ArBT‘UzztnTe rer paymeiiT of docket
fee in distric court. Amount Paid: USD 505. Date paid: 07/07/2020. [1 1771948]
(LA) [Entered: 07/30/2020 12:15 PM]
07/16/2020

12

Filed Appellant Michael A. Bruzzone letter dated 06/16/2020 re: duplicate
submission. Paper filing deficiency: None. [11756042] (RR) [Entered: 07/16/2020
10:35 PM]

https://ca9-ecf.sso.dcn/cnlecf/servlel/DktRpt7caseNum420-l 5326&dateFrorn=&dateTo-&... 7/30/2020

62

UNITED STATES COURT OF APPEALS

FILED
JUL 2 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MICHAEL A. BRUZZONE,
Plaintiff-Appel lant,
v.
INTEL CORPORATION, in concerted
action with ARM Holdings pJc & ARM Inc.
executives and their corporate attorneys; et
ah,

No.

20-15326

D.C. No.
2:1 8-cv-00865-KJM-DB
Eastern District of California,
Sacramento
ORDER.

Defendants-Appellees.
Before: GRABER, R. NELSON, and*VANDYKE Circuit Judges.
Upon a review of the record and the response to the court’s April 22, 2020
order, we conclude this appeal is frivolous. We therefore deny appellant’s motion
to proceed in forma pauperis (Docket Entry Nos. 3 and 5), see 28 U.S.C. § 1915(a),
and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall
dismiss case at any timey-i-f gourt- determines4t4s- frivolous or-nmheieus).DISMISSED.

KWH.19-/MOATT

63

June 30, 2020
To:

Clerk of the United States Court
Eastern District of California
Robert Matsui Federal Courthouse
501 "I" Street, Room 4-200
Sacramento, CA 95814

Fm: Mike Bruzzone
3766 Via Verdi
Richmond, CA 94803
campmkting@aol.com
(415) 250-4652
Re:

Case matter 2:18-cv-00865 KJM DB
Bruzzone verse Intel Corporation and ARM Inc.
Ninth Circuit Court of Appeal matter 20-15326
$505 ECAD Appeal filing fee enclosed

To whom it may concern;
Please find a Wells Fargo Bank Cashier's Check in the amount of $505 made to
Office of the Clerk, Eastern District of California Court, pursuant 00865 KJM DB
Ninth Circuit Appeal filing fee.

Bruzzone, acting in pro se, will subsequently withdraw his 9th Circuit motion
seeking/ormo pauperis status in this meritorious appellate matter.
A post paid, self addressed envelope is attached for paid receipt return.

Thank you,

Jo

:o

W---

64

0001010

11-24

Office AU#

15ib(0!

Remitter
Purchaser
Purchaser Account:
Operator J.D.: Funding Source:

CASHIER’S CHECK

SERIAL#: 0101012756
ACCOUNT#: 4861-511442

MICHAEL BRUZZONE
MICHAEL BRUZZONE
2389951431
u693867
Cash

*** CLERK OF THE COURT EASTERN DISTRICT***
***OF CALIFORNIA***
***Five hundred five dollars and no cents***

June 30, 2020

PAY TO THE ORDER OF

!

Payee Address:
Memo:

**$505.00**

APPEAL FILING FEE 2r!»<CV<e9S«S KJM OB

NOTICE TO PURCHASER—IF THIS INSTRUMENT IS LOST.
STOLEN OR DESTROYED. YOU MAY REQUEST CANCELLATION
AND REISSUANCE. AS A CONDITION TO CANCELLATION AND
REISSUANCE. WELLS FARGO & COMPANY MAY IMPOSE A
FEE AND REQUIRE AN INDEMNITY AGREEMENT AND BOND.

WELLS FARGO BANK, NJV.
1374 FITZGERALD OR
PINOLE, CA 94584
FOR INQUIRIES CALL (480) 394-3122

VOID IF OVER US S

505.00

NON-NEGOTIABLE

Purchaser Copy
FB004 (10/19) M42D3 90330000

raiavi
0001010

11-24

Office AU#

1210(B)

ia«i:Mmnm»Lirii»aamiiHi

CASHIER’S CHECK

uin»i;ia«aaj;itwa

0101012756

Remitter
MICHAEL BRUZZONE
Operator I.D.: U693887

June 30, 2020

i

PAY TO THE order OF

***CLERK OF THE COURT EASTERN DISTRICT***

***OF CALIFORNIA***
***Five hundred five dollars and no cents**?
Payee Address:
I Memo:

'

**$505.00**

APPEAL F1U«G FEE }:1$-eV-OOW5 KJM OB

VOID IF OVER USS 505.00 •

WELLS FARGO BANK, NilA.
1374 FITZGERALD DR
PINOLE; CA 94584 . ;
' FOR INQUIRfES CALL (480) 394r3122

H<oiOio;s?5£«' «: i e iooo elb«:lb&i

CONTKOUER

bulls#*

65

0~<JV2,\C8£RPCourt Harae: Eastern

rs ^ V\ \ H

£,VV^_ tw \

District of Califom

Receipt"Hunter: CAE2001Q7336
Transaction Date: Q7{07^L e
Payer Name: Michael .ft- Bruzzone

=NITED STATES DISTRICT COURT
FOR THE
STERN DISTRICT OF CALIFORNIA
OFFICE OF THE CLERK
SOI "I” Street
Sacramento, CA 95814

NOTICE OF APPEAL/DOCKETING FEE
Amount:

# V-

$505.00

CHECK

Check/Money Order Nun; 2756
Ant Tendered: $505.00
BILL FOR FEES DUE

$505.00

Total Tendered: $505.00
$0.00
Change Ant:

RE: MICHAEL A. BRUZZONE vs- INTEL CORPORATION
USDC:

2:18—CV—00865—KJM—DB

A Notice of Appeal has been filed in the above-referenced case without the appropriate
fee paid. You are hereby notified that the filing fee of $505.00 is due immediately.

KEITH HOLLAND
CLERK OF COURT
-

Bv: /s/ L. Mena—Sanchez
Deputy Clerk

66

MIME—Version:1.0 From:caed_cmecf_helpdesk@cacd.uscourts.gov To:CouflMail@localhost.localdomain
Message-Id: Subject-Activity in Case 2:18-cv-00865-KJM-DB (PS) Bruzzone v. Intel Corporation Minute
Order. Content—Type: text/htnal
I
i

This is cm automatic e-mail message generated by the CM/ECl7 system* Please DO NOT RESPOND to this
e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United Stales policy permits
attorneys of record and parlies in a case (including pro se litigants) to receive one free electronic copy of all
documents filed electronically, if receipt is required by law or directed by the filer. PACER access fees
apply to all other users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court

h-

............................................................... ........

Eastern District of California - Live System
Notice of Electronic Filing
The following transaction was entered on 3/13/2020 at 8:08 AM PDT and filed on 3/13/2020
(PS) Bruzzone v. Intel Corporation
Case Name:
2:18—cv—00865—KJM-DB
Case Number:
Filer:
WARNING: CASE CLOSED on 02/13/2020
Document Number: 60(No document attached)
Docket- Text*
MINUTE ORDER issued by Courtroom Deputy C. Schultz for Chief District Judge Kimberly J.
Mueller: The court is in receipt of Plaintiff's Motion to Proceed In Forma Pauperis (ECF No.
[59]). Having considered Plaintiffs Request, the court finds no reason to reconsider its
previous decision (ECF No. [54]) denying Plaintiff's Motion to Proceed In Forma Pauperis.
Accordingly, Plaintiff's Motion is DENIED without prejudice. Plaintiff may renew his request
in the circuit court upon filing of an appeal.(Text Only Entry) (Schultz, C)
2:18—cv—00865—KJM—DB Notice has been electronically mailed to:
Brian M. Affrunti &nbsp-&nbsp baffrunti@bwslaw.com, gpaden@bwslaw.com, Mee@bwslaw.eoin- —
William Faulkner &nbsp &nbsp wfaulkner@mcmanislaw.com, eschneider@mcmanislaw.com
2:18—cv—00865—KJM-DB Electronically filed documents must be served conventionally by the filer to:
Michael A. Bruzzone
3766 Via Verdi
Richmond, CA 94803

67

LIVE 6.2.4 CM/ECF - U.S. District Court for Eastern California-Quory Summary

8/1/2020

2:18-CV-00865-KJ M-DB (PS) Brazzone v. Intel Corporation
Kimberly J. Mueller, presiding
Deborah Barnes, referral
Date filed: 04/10/2018
Date terminated: 02/13/2020
Date of last filing: 07/07/2020

Case Summary
Filed: 04/10/2018
Office: Sacramento
Demand:
Jury Demand: None
Cause: 15:15 Antitrust Litigation
Nature of Suit: 410
Disposition: Dismissed - Other
Jurisdiction: Federal Question
Terminated: 02/13/2020
County: Sacramento
Reopened:
Origin: 1
None
Lead Case:
Other Court Case: 20-15326[USCA]
None
Related Case:
Defendant Custody Status:
Pending Status: Screen
\ Flags: PRO_SE,CIVIL,CLOSBD

1
I Plaintiff: Michael A. Bruzzohe
Defendant: Intel Corporation represented by William Faulkner Phone:408-279-8700
Fax: 408-279-3244
Email: wfaulkner@mcman.islaw.com
represented by Brian M. Affrunti Phone:650-681-8316
Defendant: ARM Inc.
Fax: 650-688-8333
Email: baffrunti@bwslaw.com
Defendant: ARM Holdings pic represented by Brian M. Affrunti Phone:650-681-8316
Fax: 650-688-8333
Email: baffrunti@bwslaw.com

PACER Service Center
Transaction Receipt
08/01/2020 11:57:05
Client
BmzzoneSZaW:6478088:0
Code:
Search
Description: Case Summary
Criteria:

PACER
Login:

Billable
Pages:

1

Cost:

2:18-cv-00865KJM-DB
0.10

1/-

https://ecf.caed.uscourts.gov/cgi-bin/qrySummary.pl7333759

68

V*

LIVE 6.2.4 CM/ECF - U.S. District Court for Eastern California

8/1/2020

PRO_.SE,CIVIL, CLOSED
U.S. District Court
Eastern District of California - Live System (Sacramento)
CIVIL DOCKET FOR CASE #: 2:18-cv-00865-KJM-DB

(PS) Bruzzone v. Intel Corporation
Assigned to: Chief District Judge Kimberly J. Mueller
Referred to: Magistrate Judge Deborah Barnes
Case in other court: USCA, 20-15326
Cause: 15:15 Antitrust Litigation

Date Filed: 04/10/203 8
Date Terminated: 02/13/2020
Jury Demand: None
Nature of Suit: 410 Anti-Trust
Jurisdiction: Federal Question

Plaintiff
Michael A. Bruzzone

represented by Michael A. Bruzzone
3766 Via Verdi
Richmond, CA 94803
415-250-4652
PRO SE

V.
Defendant
Intel Corporation
in concerted action with A RM Holdings pic
& ARM Inc. executives and their corporate
attorneys

represented by William Faulkner
McManis Faulkner
50 W. San Fernando Street
10th Floor
San Jose. CA 95513
408-279-8700
Fax: 408-279-3244
Email: wfaiilkner@rncmanislaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
ARM Inc.

represented by Brian M. Affruhti
Burke, Williams & Sorensen, LLP
2440 West El Caniino Real
Suite 620
Mountain View, CA 94040
650-681-8316
Fax: 650-688-8333
Email: baffrunti@bwslaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
ARM Holdings pic

represented by Brian M. Affrunti
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
1/2

Mtps://ecf.caed.uscourts.gov/cgi-bin/DktRpt.pl?56653161562905-L_1_0-1

69

I
8/1/2020

LIVE 6.2.4 CM/ECF - U.S. District Court for Eastern California-History/Documents Query

2:18-CV-00865-KJM-DB (PS) Bruzzone v. Intel Corporation
Kimberly J. Mueller, presiding
Deborah Barnes, referral
Date filed: 04/10/2018
Date terminated: 02/13/2020
Date of1 last filing: 07/07/2020

History
Doc.
Mo.

Dates

Description

Filed & Entered: 04/10/2018 0IFP Application

i

1

Filed & Entered: 04/10/2018 0 Complaint ;

2

Filed & Entered: 04/10/2018 0 Motion to Proceed In Forma Pauperis
Terminated:
02/13/2020
,
;

2

Filed & Entered: 09/28/2018 0 Service by Mail
Filed & Entered: 09/28/2018 0 Order

4

Filed & Entered: 10/17/2018 0 Motion to Dismiss
Terminated:
10/18/2018

5

Filed & Entered: 10/17/2018 0 Motion for Miscellaneous Relief
Terminated:
10/18/2018

6

Filed & Entered: 10/18/2018 0 Minute Order

'

Filed & Entered: 10/18/2018 0 Service by';Mail

1 Filed & Entered: 10/18/2018 0 Motion to Dismiss
Terminated:
8

10/19/2018

Filed & Entered: 10/18/2018 0 Motion for. Miscellaneous Relief
Terminated:
10/19/2018

. . 2 . Filed & Entered: 10/18/2018 0 Certificate Of Service
Filed & Entered: 10/19/2018 0 Service by Mail .

\

IQ Filed & Entered: 10/19/2018 0 Order on Motion to Dismiss
10/26/2018 0 Amended Complaint
11 Filed:
Entered:
10/29/2018

12 Filed:

13.

Entered:
Filed:
Entered:

M Filed:
Entered:
15 Filed:
Entered:

10/26/2018 0 Response to Order to Show Cause
10/29/2018
11/27/2018 0 Declaration
11/28/2018
11/27/2018 0 Notice- Other
11/28/2018
04/02/2019 0 Order
04/03/2019

Filed & Entered: 04/03/2019 0 Service byAlai!

16 Filed:
Entered:
i II Filed:
Entered:

04/30/2019 0 Response !
05/01/2019

.

04/30/2019 0 Amended Complaint
05/01/2019
1/4

iittps://ecf.caed.usoourts.gav/cgi-bir>/HistDocQry.pl?949346518665989-L_1_0-1

70

n\

8/1/2020

LIVE 6.2.4 CM/ECF - U.S. District Court for Eastern California-History/Documents Query

Filed & Entered: 08/05/2019 © Service by Mail
43

Filed & Entered: 08/05/2019 © Service by Mail
Filed & Entered: 08/05/2019! © Minute Order

44 Filed & Entered: 08/05/2019 © M inute Order
i

45

Filed & Entered: 08/05/2019 © Minute Order

47 Filed & Entered: 08/09/2019 © Reply
Filed & Entered: 08/12/2019 © Service by Mail
48 Filed & Entered: 08/12/2019 © Minute Order
42 Filed:
08/15/2019 © Reply
Entered:
08/16/2019
50

Filed:
Entered:

10/30/2019 © Summons Returned Executed
10/31/2019

Filed & Entered: 12/17/2019 © Service by Mail

£1 Filed & Entered: 12/17/2019 © Findings and Recommendations (Motion)
52

Terminated:

02/13/2020

Filed:
Entered:

12/30/2019 © Objections to Findings and Recommendations
12/31/2019

51 Filed & Entered: 01/14/2020 © Reply
;

Filed & Entered: 02/13/2020 © Service by Mail
54 Filed & Entered: 02/13/2020 © Order Adopting Findings and Recommendations
55

Filed & Entered: 02/13/2020 © Judgment

Si Filed:
Entered:
Terminated:

02/26/2020 © Notice of Appeal
02/27/2020
07/02/2020

Filed & Entered: 02/27/2020 © Service by Mail
57 Filed & Entered: 02/27/2020 © Appeal Processed to USCA
58 Filed & Entered:
52 Filed:
Entered:
Terminated:

02/27/2020 © USCA Case Number
03/02/2020 © Motion to Proceed In Forma Pauperis
03/03/2020
03/13/2020

Filed & Entered: 03/13/2020 © Service by Mail
60

Filed & Entered: 03/13/2020 © Minute Order

M

Filed:
Entered:

03/16/2020 © Motion for Miscellaneous Relief
03/17/2020

62

Filed:
Entered:

07/02/2020 ©U^C.A Order/Mandate/Memorandum
07/08/2020

Filed & Entered: 07/07/2020 © CAED Receipt

PACER Service Center
Transaction Receipt
08/01/2020 11:59:14
PACER
Login:

BruzzorteSZaW:6478088:0
J'

; Description:! History/Documents
https://ecf.caed.uscourts.gov/cgi-bin/HistDocQry.pl7949346518665989-l__1_0-1

Client
Code:
Search

2:1 S-cv-008653/4

72

Notation: Appeal Dismissal is Entered July 8, 2020 and payment of appeal filing fee is
Entered July 7, 2020
LfVE 6.2.4 CM/ECF - U.S. District Court for Eastern California

8/1/2020

Date Filed

#

07/02/2020

62

07/07/2020

Docket Text
USCA ORDER as to 56 Notice of .Appeal filed by Michael A. Rruzzone: This appeal is
dismissed. (Kaminski, H) (Entere^j 07/08/2020)^/
RECEIPT number #CAE200107336Tf5D5T55lbo^lichael A.Bjx :one by Michael A.
Bruzzone on 7/7/2020. (Coll, A) (Entered: 07/07/2020)
>r

PACER Service Center
Transaction Receipt
08/01/2020 11:35:34
PACER
Login:

BruzzoneSZaW:6478088:0

Client
Code:

Description: Docket Report

2:18-cv-00865Search
KJM-DB Start date:
Criteria:
4/18/2020

Billable
Pages:

Cost:

2

0.20

2/2

https://ecf.caed.uscourts.gOv/cgi~bin/DktRptpl756653161562905-L_1_0.1

73

/
/

1

/

2

/

/■'

/

3

f

S

4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

MICHAEL A. BRUZZONE,

12
13
14
15

No. 2:18-cv-0865 KJM DB PS

Plaintiff,
v.

ORDER

INTEL CORPORATION,
Defendant.

16
17
18
19

Plaintiff is proceeding in this action pro se. The matter was referred to a United States
Magistrate Judge as provided by Local Rule 302(c)(21).
On December 17, 2019, the magistrate judge filed findings and recommendations, which

20

were served on all parties and which contained notice to all parties that any objections to the

21

findings and recommendations were to be filed within fourteen days after'service of the findings

22

and recommendations, plaintiff has filed objections to the findings and recommendations.

23

In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C) and Local Rule 304, this

24

court has conducted a de novo review of this case. Having reviewed the file, the court finds the

25

findings and recommendations to be supported by the record and by the proper analysis.

26

Accordingly, IT IS HEREBY ORDERED that:

27

1. The findings and recommendations filed December 17, 2019 (ECF No. 51) are adopted

28

in full, including the finding that this action is frivolous;
1

74

/
/

>

r
/
//
/
/
/
/
/

i

2. Defendant Intel’s June 24, 2019 motion to dismiss (ECF No. 26) is granted;

2

3. Defendant ARM’ s July 19, 2019 motion to dismiss (ECF No. 34) is granted;

3

4. The April 30; 2019 second amended complaint is dismissed without leave to amend;

4

3. Defendant Intel s June 26, 2019 motion to declare plaintiff vexatious (ECF No. 28) i

5

denied;

6
7

6. Defendant ARM’s July 19, 2019 motion to declare plaintiff vexatious (ECF No. 35) i
denied;

8

7. Plaintiff’s April 10, 2018 motion to proceed in forma pauperis (ECF No. 2) is denied:

9

8. Plaintiff’s July 1, 2019 motion to proceed in forma pauperis (ECF No. 33) is denied;

10
11
12

and
9. This action is closed.
DATED; Febiuary 12, 2020.

13

/
/
j

14
15

CHIEF irNITEf) S TATES DISTRICT JUDGE

16
17
18
19
20
21
22
23
24
25
26
27
28
2

75

1
9

3
4
5
6
7

h

8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

MICHAEL A. BRUZZONE,

12

Plaintiff,

13
14

No. 2:18-cv-0865 KJM DB PS

v.

FINDINGS AND RECOMMENDATIONS

INTEL CORPORATION,

15

Defendant,

16
17

I
i

Plaintiff Michael Bruzzone is proceeding in this action pro se.. This matter was referred to

18

the undersigned in accordance with Local Rule 302(c)(21) and 28 U.S.C. § 636(b)(1). Pending

19

before the undersigned are defendants’ motions to dismiss the second amended complaint and

20

defendants’ motions to declare plaintiff a vexatious litigant. (ECF Nos. 45 & 48.) For the

21

reasons stated below, the undersigned will recommend that defendants’ motions to dismiss be

22

granted, the second amended complaint be dismissed without leave to amend, and defendants’

23

motions to declare plaintiff a vexatious litigant be denied.
BACKGROUND

24

Plaintiff, proceeding pro se, commenced this action on April 10, 2018, by filing a

25
26

complaint and a motion to proceed in forma pauperis. (ECF Nos. 1 & 2.) The undersigned

27

granted plaintiff leave to file an amended complaint on September 28, 2018, and again on April 2,

28

////
1

76

L

i

y

1

2019. (ECF No. 3 & 15.) On April 30, 2019, plaintiff filed a second amended complaint. (EOF

2

No. 17.) And on May 30, 2019, plaintiff paid the required filing fee. i

3

Although nearly impossible to decipher, the second amended complaint alleges, generally,

4

that the “[defendants portray[ed] Plaintiff[’s] claims [as] merit-less appear (sic) a blacklisting

5

technique on. malicious slander, libel, fraud and contract interference[.]” (Sec. Am. Compl. (ECF

6

No. 17) at 6.2) On June 24, 2019, defendant Intel Corporation (“Intel”) filed a motion to dismiss

7

pursuant to Rule 12(b)(3) and Rule 12(b)(6) of the Federal Rules of Civil Procedure. (ECF No.

8

26.) On June 26, 2019, defendant Intel filed a motion to declare plaintiff a vexatious litigant.

9

(ECF No. 28.) On July 19, 2019, defendant ARM, Inc., and ARM. Holdings PLC, (“ARM”), also

10

filed a motion to dismiss pursuant to Rule 12(b)(3) and Rule 12(b)(6), as well as a motion to

11

declare plaintiff a vexatious litigant. (ECF Nos. 34 & 35.)

1.2

On July 19, 2019, plaintiff filed an opposition to defendant Intel’s motion to dismiss.

13

(ECF No. 39.) Defendant Intel filed a reply on August 2, 2019. (ECF No. 42.) On August 2,

14

2019, plaintiff filed an opposition to defendant ARM’s motion to declare plaintiff a vexatious

15

litigant. (ECF No. 46.) Defendant ARM filed a reply on August 9, 2019. (ECF No. 47.)

16

Plaintiff filed a sur-reply on August 15, 2019.3 (ECF No. 49.)

17
18
19

STANDARD
I.

Legal Standards Applicable to Motions to Dismiss Pursuant to Rule 12(b)(3)
Rule 12(b)(3) allows a defendant to challenge a complaint for improper venue. “Once a

20

defendant has challenged venue, the plaintiff has the burden of demonstrating that venue is proper

21

in the chosen district.” United Tactical Systems LLC v. Real Action Paintball. Inc.. 108

22
23
24
25
26
27
28

i
Despite having paid the required filing fee plaintiff filed a second motion to proceed in forma
pauperis on July 1, 2019. (ECF No. 33.) Because plaintiff has paid the required filing fee, and
because the second amended complaint is frivolous, the undersigned will recommend that
plaintiffs motions to proceed in forma pauperis be denied.

2 Page number citations such as this one are to the page number reflected on the court’s CM/ECF
system and not to page numbers assigned by the parties.
3 The filing of a sur-reply is not authorized by the Federal Rules of Civil Procedure or the Local
Rules. See Fed. R. Civ. P. 12; Local Rule 230. Nonetheless, in light of plaintiffs pro se status,
the undersigned has considered plaintiffs sur-reply in evaluating defendants’ motions.
2

\

1

77

!

1

F.Supp.3d 733, 751 (N.D. Cal. 2015) (citing Piedmont Label Co. v; Sun Garden Packing Co.. 598

2

F,2d 491, 496 (9th Cir. 1979)). “When there are multiple parties and/or multiple claims in an

3

action, the plaintiff must establish that venue is proper as to each defendant and as to each claim.”

4

Allstar Marketing Group. LLC v. Your Store Online. LLC. 666 F.Supp.2d 1109, 1,126 (C.D. Cal.

5

2009) (quotation omitted). Where an action is filed in the wrong division or district the court

6

“shall dismiss, or if it be in the interest of justice, transfer such case to any district or division in

7

which it could have been brought.” 28 U.S.C. § 1406(a).

8

II.

Legal Standards Applicable to Motions to Dismiss Pursuant to Rule 12(b)(6)

9

The purpose of a motion to dismiss pursuant to Rule 12(b)(6) is to test the legal

10

sufficiency of the complaint, N. Star Int’l v. Ariz. Corn. Comm’n. 720 F.2d 578, 581 (9th Cir.

11

1983). “Dismissal can be based on the lack of a cognizable legal theory or the absence of

12

sufficient facts alleged under a cognizable legal theory.” Balistreri v. Pacifica Police Dep’t, 901

13

F.2d 696, 699 (9th Cir. 1990). A plaintiff is required to allege “enough facts to state a claim to

14

relief that is plausible on its face.” Bell Atl. Corn, v. Twombly. 550 U.S. 544, 570 (2007). “A

15

claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw

16

the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft v,

1.7

labal. 556 U.S. 662, 678 (2009).

18

In determining whether a complaint states a claim on which relief may be granted, the

19

court accepts as true the allegations in the complaint and construes the allegations in the light

20

most favorable to the plaintiff. Hishon v. King & Spalding. 467 U.S. 69, 73 (1984); Love y,

21

United States, 915 F.2d 1242, 1245 (9th Cir. 1989). In general, pro se complaints are held to less

22

stringent standards than formal pleadings drafted by lawyers. Haines v. Kerner, 404 U.S. 519,

23

520-21. (1972). However, the court need not assume the tiuth of legal conclusions cast in the

24

form of factual allegations. United States ex. rel. Chunie v. Ringrose, 788 F.2d 638, 643 n.2 (9th

25

Cir. 1986). While Rule 8(a) does not require detailed factual allegations, “it demands more than

26

an unadorned, the defendant-unlawfully-harmed-me accusation.” Iqbal. 556 U.S. at 678. A

27

pleading is insufficient if it offers mere “labels and conclusions” or “a formulaic recitation of the

28

elements of a cause of action.” Twombly. 550 U.S. at 555; see also Iqbal, 556 U.S. at 676
3

78

i

1

1

(“Threadbare recitals of the elements of a cause of action, supported by mere conclusory

2

statements, do not suffice.”)' Moreover, it is inappropriate to assume that the plaintiff “can prove

3

facts which it has not alleged or that the defendants have violated the . . . laws in ways that have

4

not been, alleged.” Associated Gen. Contractors of Cal.. Inc, v. Cal, State Council of Carpenters.

5

459 U.S. 519, 526 (1983).

6

In ruling on a motion to dismiss brought pursuant to Rule 12(b)(6), the court is permitted

7

to consider material which is properly submitted as part of the complaint, documents that are not

8

physically attached to the complaint if their authenticity is not contested and the plaintiffs

9

complaint necessarily relies on them and matters of public record. Lee v. City of Los Angeles,

10

:
;

250 F.3d 668, 688-89 (9th Cir. 2001).
ANALYSIS

11
12

I.

Defendants’ Motions to Dismiss

13

A.

Venue

14

Pursuant to 28 U.S.C. § 1391(b):

15

A civil action may be brought in—

16

(1) a judicial, district in which any defendant resides, if all defendants
are residents of the State in which the district is located;

17
18

(2) a judicial district in which a substantia) part of the events or
omissions giving rise to the claim occurred, or a substantial part of
property that is the subject of the action is situated; or

19
20
21
22

(3) if there is no district in which an action may otherwise be brought
as provided in this section, any judicial district in which any
defendant is subject to the court’s personal jurisdiction with respect
to such action.
In dismissing plaintiffs original complaint with leave to amend the undersigned advised

23

plaintiff that it appeared that the United States District Court for the Northern District of

24

California may be the proper venue for this action. In this regard, the undersigned noted that it

25

appeared that defendant Intel resided in die Northern District and that plaintiffs in forma

26

pauperis application alleged this action was related to an action filed in the Northern District.4

27
28

4 It was also noted that plaintiff had been declared a vexatious litigant in the Northern District.
(ECF No. 3 at 4.)
4

79

1

(ECF No. 3 at 4.) Accordingly, plaintiff was ordered to address venue in the first amended

2

complaint. (Id. at 6.) Plaintiff, however, did not.

3

Plaintiff was again advised about the undersigned’s concerns regarding proper venue in an

4

order dismissing the first amended, complaint with leave to amend. (ECF No. 15 at 6.) Despite

5

these repeated admonishments the second amended complaint fails to contain any allegations

6

addressing why venue is proper in this judicial district.

7

Defendants have now moved to dismiss arguing that the Eastern District is not the proper

8

venue for this action. (Def. Intel’s MTD (ECF No. 26) at 21; Def. ARM’s MTD (ECF No. 34-1)

9

at 7-8.) And plaintiff’s opposition to defendants’ motions is nonsensical. In this regard, plaintiff

10

argues

11

. . .as Northern District has raised question in this worldwide
antitrust and RICO matter where in Santa Clara County sends
. plaintiff to burn at the stake, Alameda County are suspect industrial
* spy traps and law enforcement questions, and in San Francisco
County Legal community historically entrenched on Intel Corp.
Santa Clara Legal Department contract assignments.

12
13
14
15

16

(Pl.’s Opp.’n (ECF No. 39) at 30.)
As noted above, in the face of defendants’ motions to dismiss for improper venue plaintiff

17

has “the burden of showing that venue” is proper in this district. Piedmont. 598 F.2d at 496.

18

Plaintiff has failed to meet this burden. Moreover, because the undersigned finds that the second

19

amended complaint should be dismissed without leave to amend, as explained below, the

20

undersigned finds that it would not be in the interest of justice to transfer this case. See generally

21

Lemon v. Kramer. 270 F.Supp.3d 125, 140 (D. D.C. 201 7) (“The Court finds that it is not in the

22

interest of justice to transfer this case because there are ‘substantive problems’ with the

23

Complaint, which, in its current form, would face dismissal.”).

24
25

Accordingly, the undersigned recommends that defendants’ motions to dismiss due to
improper venue be granted and the second amended complaint be dismissed.
Failure to State a Claim

26

B.

27

As was.true of plaintiffs prior complaints, the second amended complaint is unintelligible

28

and devoid of factual allegations. The second amended complaint also fails to clearly identify a
5

80

1

claim against a named defendant, Instead, the second amended complaint consists of vague,

2

cohclusory, and nonsensical sentences.

3
4

U-.S-.C. § 1962(c) intent on conduct Defendants [CLAIM] do vicariously and maliciously,

5

interfere in Plaintiff business'advantage engaged in, and promote his public, punishment’s (sic)

6

harming in reputation and profession unreasonable to reasonable person is cognizable at 18

7

U.s.c. § 1964(c).” (Sec. Am. Compl. (ECF No. 17) at 3-4.) That “[a]bout a year ago Plaintiff

8

speculates Intel associate attorneys throw Intel Corp, August 2014 vexatious filing retrospective

9

into future time, so at some point in time, we can all get out of the middle of this corporate

10

political mess.” (Id. at 5.) And that in.“earlier (sic) August 1997 Intel contract for [plaintiff] to

11

provide his observations of anticompetitive conduct[.]” (Id at 6.) However, plaintiff s

12

“[observations are covered up by Intel Corp. . . . fixers portray of (sic) [plaintiff] ‘delusional’,

13

‘paranoid’, ‘force violence risk’, unbelievable including 1999 through 2002 utilizing ibansik

14

conditioning techniques intent to amplify traumatic stress and trigger on defendant key

15

reactionary response.” (Id.)

16
1

I

r

f

As plaintiff has been repeatedly advised, although the Federal Rules of Civil Procedure

17

adopt a flexible pleading policy,- a: complaint must give' the defendant fair notice of the plaintiff s

1.8

claims and must allege facts that state the elements of each claim plainly and succinctly. Fed. R.

19

Civ. P. 8(a)(2); Jones v. Community Redev. Agency, 733 F.2d 646, 649 (9th. Cir. 1984). “A

20

pleading that offers ‘labels aitd conclusions’ or ‘a formulaic recitation of the elements of cause, of

21

action will not do.’ Nor does a complaint suffice if it tenders ‘naked assertions’ devoid of

22

‘further factual enhancements.’” Ashcroft v. Iqbal, 556 U.S.662, 678 (2009) (quoting 1 woniblv,

23

550 U.S. at 555, 557). A plaintiff must allege with at least some degree of particularity overt, acts

24

which the defendants engaged in that support the plaintiffs claims. Jones, 733 F.2d at 649.
Judicial Immunity

25

C.

26

The second amended complaint names as a defendant the honorable William Alsup, a

!

;

For example, die second amended complaint alleges that “[i]i.n this action subject 18

27

District Judge in the Northern District of California, and seeks to challenge Judge Alsup’s rulings

28

in prior actions involving plaintiff. (Sec. Am, Compl. (ECF No. 17) at 1.) Specifically, the
6

\

lo

{

81

\-

1
1

ii

1

closely fit the specific vice encountered.'” Rinegold-Lockhart v. County of Los Angeles. 761

2

F.3d 1057, 1.062 (9th Cir. 2014) (quoting DeLong. 912 F.2d at 1147-48).

3

Absent “explicit substan tive findings as to the frivolous or harassing nature of the

4

plaintiffs filings,” a district court may not issue a pre-filing order. O’Loughlin. v. Doe. 920 F.2d

5

614, 618 (9th Cir. 1990). To make substantive findings of frivolousness, the district court must

6

look at “both the number and content of the filings as indicia” of the frivolousness of the litigant’s

7

claims. In re, Powell. 851 F.2d 427, 431 (9th Cir. 1988); see also Mov v United States, 906 F.2d

8

467, 470 (9th Cir. 1990) (a pre-filing “injunction cannot issue merely upon a showing of

9

litigiousness.”). ‘“The plaintiffs claims must not only be numerous, but also be patently without

10
11

merit. 5

Ringgold-Lockhart. 761 F.3d at 1064 (quoting Molski. 500 F.3d at 1059).
Alternatively, “the district court may make [a] finding that the litigant's filings ‘show a

12

pattern of harassment.’” Ringgold-Lockhart. 761 F.3d at 1064 (quoting De Long. 9.12 F.2d at

13

.1148). However, courts “must be careful not to conclude that particular types of actions filed

14

repetitiously are harassing, and must [i]nstead__ discern whether the filing of several similar

15

types of actions constitutes an intent to harass the defendant or the court.” Id. (quoting De Long.

16

912 F.2d at 1148) (internal quotation marks omitted).

i

17

i

Here, defendants’ motions to declare plaintiff vexatious recount plaintiffs “20-year

18

history of unsuccessful, frivolous lawsuits against” the defendants. (Def. Intel's Vex. Mot. (ECF

19

No. 28) at 6) (compiling cases). And plaintiffs repeated and frivolous filings have resulted in

20 .

plaintiff being declared a vexatious litigant by the Northern District and the Santa Clara County

21

Superior Court. See Bruzzone v. McManis. Case No. 18-cv-1235 PJH, 2018 WL 5734546, at *8

22

(N.D. Cal. Oct. 31, 2018) (granting motion to declare plaintiff vexatious); Bruzzone v, Intel

23

Corporation, No. C 14-1279 WHA, 2014 WL 4090470, at *8 (N.D. Cal. Aug. 19, 2014) (same);

24

Def. Intel’s Ex. DD (ECF No. 28-32) at 2.6

i

25
26
27
28

6 The court may take judicial notice of its own files and of documents filed in other courts.
Revn’s Pasta Bella, LLC v. Visa USA, Inc.. 442 F,3d 741, 746 n. 6 (9th Cir. 2006) (taking
judicial notice of documents related to a settlement in another case that bore on whether the
plaintiff was still able to assert its claims in the pending case); Burbanlt-Glendale-Pasadena
Airport Auth. v. City of Burbank. 136 F.3d 1360, 1364 (9th Cir. 1998) (taking judicial notice of
court filings in a state court case where the same plaintiff asserted similar and related claims);
9

84

It appears from the court’s records, however, that this action represents plaintiffs lone

1
2

filing in this district. While this action has been pending since 2018, plaintiff has not filed a new

3

action. And in litigating this action pro se, plaintiff’s filings have not been inordinate, abusive, or

4

in reckless disregard of the orders of the court when compared to other pro se actions that come

5

before the undersigned.
Moreover, if plaintiff were to file a future action in this district plaintiff will have to either

6
7

seek leave to proceed in forma pauperis or pay the required filing fee. If plaintiff seeks leave, to

8

proceeds in forma pauperis the complaint will be subject to screening prior to service on any

9

defendant. See 28 U.S.C. § 1915(e)(2); see also Lopez v. Smith. 203 F.3d 1122, 1129 (9th Cir.

10

2000) (en banc). Were plaintiff to instead pay the required filing fee other sanctions, including

11

but not limited to monetary sanctions, would be available and might prove sufficient to prevent

12

any future frivolous or harassing filings. See Rinagold-Lockhart. 761 F,3d 1057, 1065 (9th Cir.

13

2014) (“Before entering this broad pre-filing order . . . the district court assuredly should have

14

considered whether imposing sanctions such as costs or fees on the Ringgolds would have been

15

an adequate deterrent.”).

16

The undersigned, however, will make an explicit finding that this action is frivolous. And

17

explicitly cautions plaintiff that filing a new lawsuit based on the events related to this action may

18

result in plaintiff being declared a vexatious litigant, may subject plaintiff to a pre-filing review

19

order, and may result in plaintiff being ordered to pay a defendant ’s reasonable attorney fees.

20

The undersigned anticipates that plaintiff will not file any new frivolous lawsuits related to the

21

events at issue in this action.

22

For the reasons stated above, the undersigned finds that defendants’ motions to declare

23

plaintiff vexatious should be denied.

24

////

25

////

26

////

27
28

Hott v. C-itv of San Jose. 92 F.Supp.2d 996, 998 (N.D. Cal. 2000) (taking judicial notice of
relevant memoranda and orders filed in state court cases).
10

86

L\

F

*
CONCLUSION

1
2

Accordingly, for the reasons stated above, IT IS HEREBY RECOMMENDED that:

3

1. Defendant Intel’s June 24, 2019 motion to dismiss (ECF No. 26) be granted;

4

2. Defendant ARM’s July 19, 2019 motion to dismiss (ECF No. 34) be granted;
3. The April 30, 2019 second amended complaint be dismissed without leave to amend;

5

4. Defendant Intel’s June 26, 2019 motion to declare plaintiff vexatious (ECF No. 28) be

6
7
I

denied;
5. Defendant ARM’s July 19, 2019 motion to declare plaintiff vexatious (ECF No. 35) be

8
9

denied;

L

6.

10
e

7. Plaintiffs July 1, 2019 motion to proceed in forma pauperis (ECF No. 33) be denied;

11
1.2

Plaintiffs April 10, 2018 motion to proceed in forma pauperis (ECF No. 2) be denied;

and

13

8. This action be closed.

14

These findings and recommendations are submitted to the United States District Judge

15

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within fourteen days

16

after being served with these findings and recommendations, any party may file written

17
18
19
20

objections with the court and serve a copy on all parties. Such a document should be captioned
“Objections to Magistrate Judge’s Findings and Recommendations.” Any reply to the objections
are
shall be served and filed within fourteen days after service of the objections. The parties
advised that failure to file objections within the specified time may waive the right to appeal the

21

District Court’s order. Martinez v. Ylst, 951 F.2d 1153 (9th Cir. 1991).

22

Dated: December 16, 2019

23
24
DEBORAH BARNES
UNITED STATES MAGISTRATE JUDGE

25
26
27

DLB:6
DB/orders/orders.pro se/bnizzone0865.mld.f&rs

28
11

87

4
1
2
3

4
5

6
7
8

9

xo
n
12
13
14
15

Michael A. Bruzzone, in pro se
3766 Via Verdi, Richmond, CA 94803
(415)250-4652

In the UNITED STATES DISTRICT COURT
for the EASTERN DISTRICT OF CALIFORNIA
)
Michael A. Bruzzone, 31 USC § 3730
)
)
Relator and attorneys Federal Trade
Commission discovery aid supporting PTC v}
)
Intel Corp. Dockets 9288, 9341
)
)
Plaintiff
)
VS.
)
)
Intel Corporation in concerted action with
)
ARM Holdings pic. & ARM Inc. executives )
)
and their corporate attorneys,
)
)
and material witnesses at
)
28 U.S.C. § 455(a)(b)(l)(5)(iv)
)
)
Mr. William Alsup solely in his individual
Mr. James Donato solely in his individual
Ms. Phyllis Hamilton solely in her individual

16

17
18
19

HLxc^

Defendants

omogut
DEC 3 0 28U

( '»«' Number 7-1 R-CVMQ2AS K IM DR PS

utrtjry clerk .................. —

OBJECTIONS TO MAG1STRTAE
JUDGE’S FINDINGS AND
RECOMMENDATIONS
Eastern District venue is proper at 15 U.S.C..
§§ 15, 22 and on claims the forum proper.
Plaintiff First Amended and pleadings state
factual allegations, actors, places, defendant
vicarious engagement in civi l and antitrust
harms targets at 15 IJ.S.C. § 1 on concert
racketeering 18 USC § 1962c cognizable
§1964c; “defendants have not established
beyond doubt that the plaintiff can prove
no set of facts in support of his claim[s] for
relief’; Conley v Gibson, 355 U.S. 41, 45
(1957). Pursuant Iqbal quoting Twombly
Defendants are concealing much of the
factual evidence in Sealed Santa Clara
County Court Declarations libeling on
perjury, false representation, manufacture
That 1st Amended 0865 ruled operative
and its claims preserved; “re-pleading is
not required” Young, 238 F.3d at 573 n4
and relation back doctrine Rule 15(c)

20
21
22
23
24

NOTICE OF MOTION to Court, parties
and their attorneys in this action.
On no dispute between the parties that
Plaintiff is genuinely indigenous defined
within definitions and decision framework
of District Court supported on State Proofs
that Bruzzone Motion for former pauperis
be summarily granted FRCP 56(a)(l)(A)(B).

25

OBJECTIONS TO MAGISTRTAE JUDGE’S FINDINGS & RECOMMENDATIONS 1

88

>

\

S'

1

Page

2
3

NOTICE OF MOTION to Court, parties, attorneys, pursuant forma pauperis

4

At ISSUE — factual allegations

6

5

1) Plaintiff enabled move to discovery, defendants pursuant Plaintiff cannot
factually support on law sufficient vexatious cause moved in Eastern District
and claimed elsewhere intent to harass, delay . . .

6

2) For 21 years Defendants intentionally place Plaintiff in damning light on lies,
perjury, misrepresentation, reversing harms . . .

8

Hearsay and misrepresentations portrayed to Courts and Public as factual
and / or adjudicated fact include but are not limited to Sealed Declarations
here named ...

9

6

cover

7
8
9
10

n

INTRODUCTION (all sections include factual allegations)

10

Prologue, Factual Allegations, Forma Pauperis consideration

10

12
13
14

EASTERN DISTRICT as PROPER VENUE & PROPER FORUM

15

LEGAL ARGUMENT; Venue and Forum on Statute Limits

16

Intel Corp. and Intel Government Affairs at Folsom CA.; 28 U.S.C. §
1391(a)(l)(2) per 15 U.S.C. §§ 15, 22, and respective ARM Holdings
pic /ARM Inc. at 15 U.S.C. 22, 28 U.S.C. § 1391(c)(3) and § 1391(e)

17.
18
19

Limits; Clayton / borrowing Cartwright 4 years; Judgments CCP 337.5
10 years. Civil RICO 1962c, 4 years, on predicate acts up to 25 years

20

Bruzzone retaliation claims are similar;

21

like Garcia v Wilson 731, F.2d 640, 650-51 (10th Cir. 1984)
and Wilson v Garcia 471 U.S.'261 (1985)

22
23
24
25-

11-13
13

13 - 17
15

like Kapp v Nat 7 Football League, 586 F.2d 644, 648-49 (9th Cir 1978)
like Radovich v Nat’/ Football League, 352 U S. 455 (1957)
confirmed Klor'sInc. v. Broadway-Hale Stores, Inc., 359 U.S. 207 (1959)
like Stem v United States Gypsum, 547 F .2d 1329 (7th Cir. 1977)
Superior to in relation Ostrofe v H.S. Crocker Co., 740 F.2d 739 (9th Circuit 1984)

OBJECTIONS TO MAGISTRTAE JUDGE’S FINDINGS & RECOMMENDATIONS 2

89

!

r
1

TABLE of other Pertinent AUTHORITIES continued

2

Carr Carriers, 745 F.2d at 1106; at Pollerv Columbia Broad. Sys 3 6S U.S. 464, 373 (1962)

3

Celotex Corp., v Catrett, All U.S. 317, 324, 106 S.Ct 2548, 2553, 91 L Ed.2d 265 (1986)

4

FTC v Cement Institute, 333 U.S. 683 (1948)

5

Conley v Gibson, 355 U.S. 41, 45 (1957) pursuant Iqbal quoting Twombly

6

Continental Ins. Co. v Pierce County. Wash., 690 F.Supp. 930 (W.D. Wash 1987)
Judgment aiTd, 8977 F.2d 64 (9th Cir. 1989)

7
8

Davis v Welchler U.S. 22, 24; Stromberg v California, 28 U.S. 359; NAA.CP
v Alabama, 375 U.S. 449.

9

Fidelity & Guarantee Co., 805 F.2d 741, 748 (7th Cir. 1986)
10

Ford v Temple Hospital, 790 F.2d 342, 373 (3rd Cir. 1985)
11

Foltz v Saint Louis & S.F. By., 60 Fed 3 16, 318 (C.C.A 8th 1894)
12

FTC v Cement Institute, 333 U.S. 683 (1948)
13
14

Ginterex rel. Ballard v. Belcher, Prendergast & Laporte, 536 F.3d 439, 449
(citing l.ane ex rel. Ixme v. Halliburton, 529 F.3d 548, 557 (5th Cir. 2008)

15

International Boxing Club, 348 U.S. 236, (1955)

16

Juliard v Geeman, 110 U.S. 421 (1884)

17

KehrvA.O. Smith Corp. 521 U.S. 179 (1979)

18

Mathews v Eldridge 408 U.S. 471, 408 U.S. 481 (1976)

19

Monell v Department of Social Services City ofNew York 436 U.S. 658 (1978)

20
21
22
23
24
25

Monroe vPape, 365 U.S. 167, 196 (1961)
Morrissey

Brewer 408 U.S. 471 (1972)

Noble Drilling Services, Inc. v. Certex USA, Inc., 620 F.3d 469, 473 (5th Cir. 2010)
Railroad Telegraphers v Railway Express Agency, 321, 348 - 49 (1944)
Sedima S.P.R.L v Inrex Co., 105 S.Ct 3275, 3285 (1985)
Tellis v United States Fidelity & Guarantee Co., 805 F.2d 741, 748 (7th Cir. 1986)
Wong Yang Sung vMcGrath 339 U.S. 50 (1950)

OBJECTIONS TO MAGISTRTAE JUDGE’S FINDINGS & RECOMMENDATIONS 4

91

IIP
f

w
i
2
3

CONSTITUTION
Constitution l'’\ 4th, 5th, 9* 14th
STATUTES

4,

) 5 U.S.C §§ 1, 2, 5, cognizable § 15 and jurisdiction § 22

5

18U.S.C. §§2, 3, 241, 242, 371, 641, 1001, 1341, 1503, 1505, 1510, 1511, 1512, 1513,
1516, 1519, 1956(A)(i) promotion, (A)(ii) evade taxes, (B)(i) concealment, (B)(ii) avoid
transaction reports requirements (a)(2) international, (a)(3) sting, (h) conspiracy, 1957, 1961,
1962c, cognizable 1964c and §§ 1831 & 2382 questions

6
7
8

28 U.S.C. §■§ 1391(a)(l)(2), 1391(c)(3), 1391(e), venue and forum
28 U.S.C. § 1331 in relation 28 U.S.C. § 1346(a)(2), limits ofjurisdiction

9
10

32 U.S.C §§ 3729, 3730(e)(A)(4), federal false claims action

11

42 U.S.C. § 1981(a)(b), in State § 1983, federal § 1985(1)(2)(3) law deprivation

12

California,State Cartwright Act borrowing affect on stature of limitation 4 year

13
14
15

RULES and PROCEDURE
CCP § 337.5, Judgments affect on stature of limitation 10 year
CCP § 391(b), California State vexatious litigant decision framework

16

FRCP 12(b)(3)(b)(6); venue and cognizable claims

17

FRCP 56(a)(l)(A)(B), Summary Judgment pursuant Motion for forma pauperis
FRCP 60(b)(3), defendant attorneys fraud
FRCP 60(b)(4), on fraud judgment is VOID
FRCP 60(d)(3), set aside judgment for fraud of the court

18
19
20
21
22
23
24
25

RELATED CASES
EUCC v Intel Corp. 37.990 antitrust
FTC v Intel Corp. 15 U.S.C § 5 Docket 9341
California Microprocessor Cases I-05-cv-045077
Standing Qui Tam; 08-cv-04169 and its U.S. Attorney amended 09-cv-00679
TREATISE
Excerpt from Senator Estes Kefauver; Special Senate Committee to Investigate Crime in
Interstate Commerce, 1951.

OBJECTIONS TO MAGISTRTAE JUDGE’S FINDINGS & RECOMMENDATIONS 5

92

matters their civil rights at Constitution 5th and 14th. Advocate and lawful class are
denied procedural and substantive due process to prove 15 U.S.C. §§ 1, 2, 15 at 18
U.S.C. §§ 1962c, 1964c robbery on defendant deprivations at.42 USC §§ 1981(a)(b),
in State at § 1983, subject jurist network concert action, deprivation of civil rights
under intentional corporate deceit & law enforcement weakness at § 1985(1 )(2)(3)
accessories after the fact on 18 U.S.C. § 3 and with political egg on face pursuant
defendants associate network custom too conceal; Monell v Department of Social
Services City of New York 436 U.S. 658 (1978). On color of law negligence
manipulated by fraternal fascists in their defamatory targeting of Plaintiff including
2001 through 2005 psychiatric sting driving into drug abuse unsuccessfully
attempting 3 strikes through multiple assassination attempts meant to disqualify
Plaintiffs federal standing, and now, too squelch Plaintiff and “Lawful Class”
guaranteed right too discovery and Intel Inside® price fix recovery pursuant extra­
judicial law interference subject Bivens v Six (Un)known Narcotics Agents, 403 U.S.
388 (1971).
On full discovery Bruzzone will validate organized crime, fascist and or neo
Nazi insurgence into law enforcement, BAR, academic institutions including on
reliance of Intel stock market rigging cipher meaning to pad their institutional
endowments. Plaintiff will examine institutions competing to disqualify his Docket
9341 discoveries include Stanford University associated with Silicon Valley Round
Table and Mr. Michael Major a Stanford economists thought playing part in the
malicious entrapment of Bruzzone at ARM Techcon, and Judge Richard Frank
previously California Department of Justice and Bolt School of Law. Extends too
94

expert fixer’s Intel Corp. relies including Dr. Harley Stock of Incident Management
Group, and still others,

buried into United States federal government intent on

conduct to conceal the two largest theft’s in the history of United States, a) Intel
Inside® processor price fix theft from nation, States and citizens, b) Production
laundering from Intel Corp. by Chief executives engaged in inter nation cartelization
of the Intel x86 processor and related computer sale’s market channels world wide.
“Underworld characters with political protection are acquiring legally
established businesses as fronts and are snatching working control in various large
corporations; hotels, motels, resorts, banks. Such characters, it is held, have a made a
bundle in the underworld - through gambling operations, houses of prostitution,
bootlegging, assassination, smuggling, narcotics traffic, and they are now pyramiding
their illicit gains in the labyrinthine corporate world. Various dangers loom: They will
loot companies from the inside, will rig markets and defraud the public, they will be
better able to procure politicians, they will prey on legitimate businessmen. They will
turn a happy, honest corporation into a devils den, with consequent demoralization of
an orderly society. I cannot over emphasize the danger that can lie in the muscling
into legitimate fields by hoodlums . . . there was too much evidence before us of
unreformed hoodlums gaining control of a legitimate business; utilizing all his old
mob tricks - strong arm methods, bombs, murder - to secure advantage over
legitimate competition.

All too often such competition either ruins legitimate

businessmen or drives them into emulating or merging with the gangsters” - Senator
Estes Kefauver - comment on hearings before the Special Senate Committee to
Investigate Crime in Interstate Commerce, 1951.
95

2)

For 21 years Defendants intentionally place Plaintiff in damning light on lies,

perjury, misrepresentation, reversing harms, on conduct physically manipulating &
psychologically conditioning into reactive response on which they claim “threat”,
delete facts characterizing Plaintiff “out go get Intel”, “paranoid”, “delusional”,
“risk”, “dangerous”, “an incompetent”. Defendants associate network at 18 U.S.C. §§
1001(1)(2)(3) and 1961 scheme manufactures their threat to defame, slander in
industry, court records, libels in the public and legal news record journals are named .
Many are involved for financial and professional advancement paid from stolen
monies to promote Plaintiff industry group trade and legal service market boycott.
Places plaintiff in obloquy on associate’s technique of presenting non adjudicated
hearsay, much that is misrepresented, or perjured, as found fact, widely disseminated
through government, industry, public and legal news sources found in SEALED Intel
Corp associate sworn Declarations and ARM Holdings pic / Inc. perjured Santa Clara
County Superior Ct. Restraining order Petitions; all of which are discoverable whose
sources are cited next page.
Hearsay is intentionally rolled from one court case record to the next,
portrayed as if found fact. Intentionally deceives in a swindle aiding to abet
defendant’s 25 year commerce and consumer theft from nation’s, States, citizens, this
plaintiff their Intel Inside ‘price fix’ robbery on false certification of no monopoly, no
consumer harm, actual false certification of U.S. Department of Justice antitrust
compliance obligation in contempt of that 1993 order.
Hearsay and misrepresentation portrayed to Courts & Public as factual
and / or as adjudicated fact include but are not limited to the Sealed Declarations of
96

Intel consultant said affiliate Federal Bureau of Investigation & Secret Service Dr.
Harley Stock of 1997 through 2001, again July 5, 2013, of August 6, 2018 that leads
into E.D. 00865. by Intel Attorney Mr. Christopher Moropoulos of February 2, 2001,
by Declaration of Intel associate attorney Mr. Michael Reedy attempts ‘Doe’
entrapment of 2012 at Semi con West Executive mixer, of Intel Corporate Security
Chief Mr. Steve Lund July 13, 2013 furthers Dr. Harley Stock misrepresentation and
chronicles the attempted entrapment of Plaintiff at 2013 Data Center Alliance
Conference, three perjured ARM Holdings pic/ARM Inc. Petition’s for Restraining
Orders 2013, leads too Bruzzone entrapment at 2014 ARM Techeon conference there
after ARM Holdings pic / Inc. 2016 and 2019 petitions for restraining order renewal
are based on perjured claims the original 2013 matter denied cross examination and
2019 matter denied confrontation.
INTRODUCTION
Magistrate Judge Bames recommends to Judge Mueller 2:18-cv-00865
dismissal at FRCP 12(b)(3) for fact or law omissions validating Eastern District as
proper venue and at FRCP 12(b)(6) for failure to state a claim on which relief can be
granted. Further, motions for plaintiff too proceed in forma pauperis be denied.
Prologue, Factual Allegations, Forma Pauperis consideration
Plaintiff respectively disagrees. First on statute, Eastern District venue is
proper and on claims forum proper addressed below. Second, plaintiff first amended
expresses factual allegations, actors, places, defendant vicarious engagement in civil
and antitrust harms on concert racketeering. Judge Bames at footnote 5 infers the
“original complaint” is in some ways “intelligible” in relation to second amended.
97

found [at 1900 Prairie City Road, Folsom, CA 95630] or transacts business”. Plaintiff
trusts these statute clarifications address Judge Barnes concern demonstrating Eastern
District is proper venue at 28 U.S.C. § 1391 (a)(l)(2) per 15 U.S.C. §§ 15, 22, and
respective ARM Holdings pic at 28 U.S.C. § 1391(c)(3) and § 1391(e) finding on
Monell v Department of Social Services City of New York 436 U.S. 658 (1978) and
Bivens v Six (Un)known Narcotics Agents, 403 U.S. 388 (1971) discovery in the
matter that justifies

naming known individuals at U.S. Attorney of Northern

California District, Federal Bureau of Investigation, Secret Service, California
Department of Justice, California Highway Patrol associated protecting Bruzzone
during Docket 9288, ICE, other law enforcement agencies including Mill Valley and
Berkeley Police Departments, their associated detectives, Paragon Security an Intel
contractor, Dr. Harley Stock an Intel contractor affiliate with FBI & Secret Service,
Creative Security Solutions an ARM contractor, Southern Pacific and Santa Fe Rail
detectives, Pinkerton and their informants, Mr. Michael and Mr. John Burke nephews
of Mr. Bill Burke of ARM Holdings pic / Inc. associate counsel of Burke, Williams,
Sorensen LLP said Secret Service affiliates also suspect detectives, or informants
thought knowledgeable of ring masters engaged in cons and stings targeting Bruzzone
including to induce into mental trauma, drug abuse, to conduct drug induced
interrogations of plaintiff including in his home and outside home and too set up as
felon.

Extends’ to suspect informant Jay Maier location unknown. Extends too

known named and unnamed FBI agents including associated Mill Valley Police
Department incident of February 16, 2002 where officers Gardner and Epstein stop
Plaintiff in his vehicle, thereafter Epstein attempts to plant cocaine in vehicle
99

recorded by an unnamed FBI agent. On plaintiff interface with Intel consultant Dr.
Harley Stock who appears aware some of these incidents as does Intel Corp. detective
Mr. Mark West and Mr. Steven Lund thought involved with some of the known and
unnamed agents and detectives. ARM Holdings pic / ARM Inc. are also suspected
involved some of the known named and unnamed law agents, detectives and
informants. Bruzzone FBI and Congressional reports name all law enforcement and
detectives plaintiff is directly aware are to numerous to name here and essential to
preserving discovery. The court should order all discovery preserved.
Forum is also proper. Intel Corporation’s Mr. D. Jason Bagley, Director
Government Relations and his predecessor Mr. Johnathan Williams, Director State &
Local Government Affairs operate specifically from Intel Folsom facility and their
interaction with and between California Department of Justice knowingly or
unknowingly on Intel Corporation executive and business relation’s malicious
targeting to defame, boycott, disqualify this Federal Trade Commission v Intel
Corporation discovery aid and consent order monitor places Bruzzone in damning
false light and public obloquy. Multiple public, industry and legal news sources all of
which are named in Plaintiffs complaints and pleadings do portray Bruzzone
“vexatious”, “delusional”, “dangerous”, “employment risk”.

Bruzzone has been

publicly ridiculed on the Seeking Alpha stock investment site. Bruzzone has been
banned from the industry electronics journal Electronic Engineering Times. Entities
and defendant techniques of creating question cause Bruzzone profession and
reputation harm are detailed in Bruzzone Eastern District and Northern District
complaints and associated pleadings.
100

LEGAL ARGUMENT; Venue and Forum on Statute and Limits
Whether venue is proper or improper is generally governed by 28 U.S.C. §
1391. When venue is challenged, the court must determine whether the matter falls
within one of the three categories set forth in 1391(b)(1) “in which defendants
reside”, (2) “district in which a substantial part of the events or omissions giving rise
to claim occurred, (3) “any district in which an action may otherwise be brought”
including other specific venue grant in 00865 at 15 U.S.C. §§ 15, 22 and 18 U.S.C. §
1962c civil RICO claim “Intel executives and associates “rewarded and or paid from
and to conceal” 4,699,494,597 individual consumer robberies along the highways of
inter state commerce including from Bruzzone cognizable 18 U.S.C. § 1964c on 15
U.S.C. § 1 horizontal combination on contract assessing price fix charge on product
routed across state lines. Price fix charge is a cartel administrative fee for direct Intel
tied charge kick back compensating distribution channels for registered metering is
buyer price discrimination. Bruzzone is robbed by Intel Corporation Intel Inside price
fix on 3 occasions associated with two Intel Inside brand processor and one computer
purchase. While none of these robberies fall within the prior four years pursuant civil
RICO statute of limits’ pursuant Clayton at Agency Holding Corp. v Malley-Duff &
Associates, Inc. and / or borrowing from State of California at Cartwright Act or at
Judgments CCP 337.5 predicate acts of continuous price fix robberies, the
constitutional hurdles placed by the court and law enforcement in recognizing to
enable discovery of plaintiffs repeated notices, the predicate acts of silencing plaintiff
notice whether portraying unintelligible, not cognizable, denying confrontation &
examination of defendant perjuries including every three year’s injunction renewals to
101

invalidate contact frauds (4 yrs), thereafter beginning 2014 to falsely portray “not
relator”, United States “not involved” in FCA, Bruzzone “vexatious litigant” of
“merit-less” claims demonstrate associate defendant continuous “maintenance of
interest” through pattern of racketeering activity in an enterprise engaged in or
affecting interstate commerce”; 18 U.S.C. § 1962(a)(c) that dates back to Bruzzone
original Plaintiff claims where predicate acts have “never slumbered, memories never
faded” despite the fact that witnesses have died and others must obviously be on the
run; Railroad Telegraphers v Railway Express Agency, 321, 348-49 (1944); 2) “An
award under the Railway Labor Act in a proceeding in federal district court begun
within two years of the date of the award, is not barred by a state statute of limitation
of six years merely because the claims became six years old while proceedings were
pending”. “District Courts finding in bad faith or absence of bad faith is a factual
determination and may reverse only if clearly erroneous” Must be “indication of
intentional advancement of a baseless contention made for ulterior purpose”, e.g.,
harassment and delay; Ford v Temple Hospital, 790 F.2d 342, 373 (3rd Cir. 1985),
which there absolutely is.
Defendants predicate acts affecting this U.S. DOJ qui tarn “relator” and
iL

Congress at 9 designee “people’s advocate” are continuous and unabated May 1993
through December 2018. At which time in 2018 this Docket 9341 discovery aid
finally secures discontinuation of Intel Inside® price fix pressing Intel Corp. for that
outcome. End of Intel Inside program falls within four year civil RICO limit and
filing of 00865. Where defendants conspiratorial motives are both coordinated and
“calculated to prejudice public and unreasonably restrain inter state commerce” at 231
102

F.2d at 623; Int’lBoxing Club, 348 U.S. 236, (1955). Pursuant Sedima S.P.R.L v Inrex
Co., 105 S.Ct 3275, 3285 (1985), the “RICO claim is established by investment,
maintenance of interest, participation, through pattern of racketeering activity in an
enterprise engaged in or affecting interstate commerce”; 18 U.S.C. § 1962(a)(c) said
“any robbery”, “any act or threat. . . involving robbery, bribery, extortion” 18 U.S.C.
§ 1961. And where Intel Inside rebated fee and tied charge kick back are described by
Intel Inside branded PC suppliers as “PC extortion” including by Compaq Computer
Corporation. Where Bruzzone and others are bribed with employment as long as they
shut up and refrain from challenging Intel associate network, or, are attacked when
they become, in this matter, a discovery aid of Federal Trade Commission. Intel
Bruzzone bribery ends 1998 within period of predicate tolling.
Like in Ostrofe v H.S. Crocker Company, 740 F.2d 739 (9th Circuit 1984)
Bruzzone is an affected industry and Intel brand buyer adverse to racketeering,
antitrust, and industry spy recruitment threatened to participate in employer theft, and
in 1995/1996 advised too leave

Intel Inside alone. Like Stern v United States

Gypsum, 547 F.2d 1329, Bruzzone is a federal auditor, like Kapp v National Football
League, 586 F.2d 644, 648-49 (9th Circuit 1978) and Radovich v Nat7 Football
League, 352 U.S. 455 (1957), Bruzzone is witness to industry espionages and target
of group boycott on § 3730(e)(4)(A) deputy of the United States and witness to Intel
executive misrepresentations of Intel monopoly power, Intel Inside price fix,
processors sold at price below cost, unreported non accounted revenue and non
accounted Intel processor production totals and costs is the employee theft, Intel legal
Dept, suspect 25 annual false certifications of antitrust compliance to United States
103

Department of Justice in an associate fraudulent concealment to cover up and distract
from all of the above portraying Bruzzone the bad guy. Like Wilson v Garcia 471
U.S. 261 (1985) “’injury to the person or reputation of any person’” at 280 quoting
N.M Stat. Ann §37-1-8 (1978). Bruzzone can and has established on his complaints,
pleading, exhibits denied legitimate adjudication State and federal claims that are
deprivations of Constitutional and civil right’s; Monroe v Pape, 365 U.S. 167, 196
(1961), Garcia v Wilson, 731, F.2d 640, 650-51 (10th Cir. 1984) affd, 471 U.S. 261
(1985). As “RICO is manifestly directed towards activities that go beyond the mere
commission of predicate offenses”, Tellis v United States Fidelity & Guarantee Co.,
805 F.2d 741, 748 (7th Cir. 1986) where 25 years use of U.S. mail by Intel cartel
Dealers to route Intel Inside ‘price fixed’ computers across state lines is highly
discoverable.
In resolving a Rule 12(b)(3) motion, the court may consider “evidence in the
record beyond simply those facts alleged in the complaint and its proper
attachments.” Ginter ex rel. Ballard v. Belcher, Prendergast & Laporte, 536 F.3d
439, 449 (5th Cir. 2008) (citing Lane ex rel. Lane v. Halliburton, 529 F.3d 548, 557
(5th Cir. 2008) (“court may find a plausible set of facts by considering any of the
following: (1) the complaint alone; (2) the complaint supplemented by undisputed
facts evidenced in the record; or (3) complaint supplemented by undisputed facts plus
the court's resolution of disputed facts.” In absence of factual findings made by the
court based upon an evidentiary hearing, affidavits and other evidence submitted by
the non-moving party in the context of a Rule 12(b)(3) challenge are to be viewed in
the light most favorable to that party; Ambraco, Inc. v. Bossclip B.V., 570 F.3d 233,
104

238 (5th Cir. 2009) (citing Murphy v. Schneider Nat'l Inc., 362 F.3d 1133, 1138—40
(9th Cir. 2004)); see also Noble Drilling Services, Inc. v. Certex USA, Inc., 620 F.3d
469, 473 (5th Cir. 2010) (in reviewing cases decided under Rule 12(b)(3), a court
must “view all the facts in a light most favorable to the plaintiff’) (citations omitted)).
On predicate and last act the patterns of racketeering 18 U.S.C. § 1962,
injuries and patterns preventing discovery, on fraudulent concealment in conspiracy,
pendant California Microprocessor Cases l-05-cv-045077, Plaintiff & “Lawful Class”
harms are continuous and constantly renewed. Defendant overlapping acts of
concealment set equitable tolling to April 1997 which is Bruzzone first notice to Intel
Corporation executives his antitrust observation. Possibly back to October 22, 1996
which is FBI summary report of Bruzzone initial notice of espionage by Intel Inside®
paid agents; “UNSUBS; POSSIBLE FRAUD”. Question is whose fraud? May go back
as far as Bruzzone 1992 into 1995 reports of secure data theft solicitation by Intel
Inside agents when at Cyrix Corporation (1992), interference and said framing by
Intel media agents infiltrated into Advanced RISC Machines (1994), Intel media
agent discontent with Bruzzone hiring decisions then direct observation of NexGen
classified document theft by others, reported by Bruzzone, begins with Bruzzone
identification of Pentium Neptune tied bundle in the Boston area and concludes with
the Nx586 main-board sabotage.
Defendants are fraudulently concealing Bruzzone injuries. Through 21 years
Plaintiff notices defendant activities both civil and criminal misrepresentation some
are established on EUCC v Intel Corp. 37.990 and FTC v Intel Corp. Docket 9341.
Plaintiffs diligence never lacked through defendant, and associate network, and or
105

extra-judicial actor attempts to deny “lawful class” civil rights; Kehr v A.O. Smith
Corp. 521 U.S. 179 (1979) Plaintiff has plead with particularity in hundred of
submissions

circumstance’s

surrounding

defendants

fraudulent

concealment

Continental Ins. Co. v Pierce County. Wash., 690 F.Supp. 930 (W.D. Wash 1987)
judgment affd, 8977 F.2d 64 (9th Cir. 1989) Bruzzone has always been diligent in
his right to discover defendants fraudulent concealment where to deny that right is
manufactured into defendant’s “vexatious litigant” beginning August 2014 meant to
squelch civil rights.

CONCLUSION on VENUE and FORUM
Pursuant 28 U.S.C. § 1391(b)(1) and (3) 15 U.S.C. §§ 1, 15 claim
corresponding Intel Corporation executives and some ARM associates engaged
making their retaliatory example of Plaintiff, direct awareness or participation in
deprivation of rights under the color of law 42 U.S.C. §1981 (a)(b), in State at §1983,
vicariously at 42 U.S.C. §§1985(1)(2)(3) specific venue § 1391(b)(2) “district in
which a substantial part of events or omissions giving rise to claims occurred E.D. of
California at § 22 is 1) a proper venue , 2) conveniently located to Bruzzone and Intel
Corp. security contact Mr. Abel Tenorio and Government Relations operating from
1900 Prairie City Road, Folsom and Office of the California Department of Justice
just 0.63 miles from Matsui Court house. Intel Corp. Government Relations division
and CDOJ discovery is sought. Plaintiff trusts Eastern District offers equitable
adjudication free from the associate network, regional judicial and in the pocket of
Intel law enforcement custom, hereto sealed investigative facts of the Northern
California District, the Santa Clara County jurists, and law enforcement, pursuant
106

i

Monell at Bivens where “assertion of federal rights, plainly and reasonably made, are
not to be defeated under the name of local practice”, Davis v Welchler U.S. 22, 24;
Stromberg v California, 28 U.S. 359; NAACP v Alabama, 375 U.S. 449.
CONTROVERSY on CONTRACT and LONG TIME REMEDY DENIED
This controversy began and remains a contract dispute from August 1997
when Intel Corporation hires Bruzzone to confer with Dr. Harley Stock on direct field
observations of anticompetitive conduct including industrial espionage Bruzzone is
directly aware solicited by Intel Inside representative media agent’s seeking employer
secure data November 1991 through 1995. The 1997 and continuous contract
violation is Intel lawful compliance clause §10 (A)(B) incorporated into contract.
Intel Corp. compliance is not lawful. For greater than a decade Bruzzone has sought
mediation remedy through Intel Corporation Vendor Contract Dispute Committee is
threatened with contempt of the ‘stay-away’ injunction officers of that committee are
added to the injunction list of prohibited parties. Bruzzone truly desires Intel Contract
Dispute Committee know for future remedial how Dr. Stock, CEO Dr. Andy Grove,
Chief Counsel Mr. Thomas Dunlop, continuing CEO Mr. Craig Barrett, Mr. Paul
Otelinni, Chief Counsel Mr. Bruce Sewell, interim Ms. Suzan Miller, Mr. Douglas
Melamed all of whom are engaged in the approval of cartel contract formulation
threw Bruzzone under the bus to conceal today the $41.5675 billion consumer price
fix theft of which up to 4.8% is from the federal government, and on production
economic and channel data in excess of a $1.2 T (wholesale value) product theft from
Intel employees and stockholders by Intel Chief Sales Executives and Chief Counsel.

107

Il\

Where human nature can take its natural judicial course is only a matter of conspirator
travel on locations in time.
HISTORY
Retaliation escalates first half 1996 at Advanced Micro Devices includes
threatening phone calls leads to Bruzzone first report to FBI San Jose Bureau in June
1996. In one phone and one in-person meeting with Agent Jack Felski addresses said
espionage’s, solicitations, anti-competitive effects of Intel Inside in program’s third
year of tied charge metering then known as “rebated fee”. Bruzzone was then as he is
now an expert on system, commercial and competitive effects of Intel Inside, is told
to leave it alone, in 1995 or 1996 by Mr. Fred Hoar (deceased) business relation of
Intel Corp. Mr. Hoar is also thought spy recruiter.
i

Noteworthy Intel blames AMD portraying Bruzzone as “threat”, where Mr.
Leonard Balli who is the body guard of CEO Craig Barrett, and AMD security Ms.
Holly Rodriguez, are together engaged in black market CPU investigation and Mr.
Balli in Bruzzone investigation. AMD Security Mr. Mark Tyrrell and Bruzzone
investigate including Bruzzone framed in thefts at AMD in 1996, that Bruzzone is
initially unaware and uninformed. Mr. Balli and Ms. Rodriquez relationship is a
dubious one and there are fraternal suspects working at AMD.
Bruzzone met with Doctor Harley Stock on August 8, 1997 for eight hours at
the rate of $225 per hour after which instead of addressing Plaintiffs direct
observations remedially, Dr. Stock and Intel cover them up. Ultimately by 1999 year
end Intel and associate relations disseminate to all four hundred members of the
American Electronics Association, through security sub committee members, that
108

Bruzzone is paranoid delusional and employment risk.

That portrayal, marking,

transforms Bruzzone into prey for hunting. Between 1997 and 2017 attracts
mercenaries and detectives SWATS on Intel & associate false portrayal of Bruzzone
denied addressed in all the potential hearings, never allowed confrontation, always
denied examination is a blacklisting scheme by Intel Corp., executives including Dr.
Andrew Grove, Dr. Stock, certain among Intel security personnel, Intel in-house
attorneys engaged in cartel contract formulation, antitrust compliance false
certification to USDOJ where Intel assoc, attorneys Mr. McManis, Mr. Faulkner, Mr.
Reedy with Dr. Harley Stock are paid from and to conceal collection of stolen monies
representing 4,699,494,597 Intel Inside® consumer price fix robberies. Bruzzone
estimates on the 33 counties that make up Eastern District population; 7,984,984 at 2
PCs purchased within the prior four years equates to a $20 Intel Inside price fix
delivers $15,969,806 citizen recovery. Population method does not include
businesses, schools, municipalities or this courthouse. Note States AGs prefer direct
invoice and or property tag, or Windows license proof of purchase method, over
population method for determining ‘State Citizens’ Intel Inside® price fix recovery.
In August 1997 when Bruzzone first details his field observations of
anticompetitive activity and espionages including from the effects of Intel Inside,
consumer price fix harms were ~ $3,612 B and today total $41,567,500,000. In
addition Bruzzone documents a stock market rigging device devised by Intel Corp.
and media agent Softbank Ziff Davis currently parent company of ARM Holdings pic
/ Inc. known as ‘supply signal’ is a quantitative story problem composed of data bits.
Cipher data is disseminated by Micro Design Resource 1996 through 2001. Beginning
109

2001 by Russia personal computer news source spreads to domestic sources on
Barrett administration quarterly by category supply details 2005 into 2009. Goes
underground resurfaces 2010 as data bits supplied again by Russia press source.
Anandtech, Fudzilla, PC Perspective, VR-Zone, Russia press source Xbitlabs are
among the distribution sources of Intel by category quarterly supply and disintegrated
story problem data. This data is relied for a significant portion of FTC v Intel Docket
9341 production economic analysis. On Bruzzone press the techniques of supply
signal are discontinued by Intel Corp. at year-end 2016. That device enabled inside
stock traders to calculate Intel Corp. revenue and margin up to eight quarters into
future time for gaming INTC stock price. The Security and Exchange Commission
acknowledges Bruzzone relator of stock market rigging tool similar to the U.S.
Attorney designating Bruzzone qui tarn relator in the federal government’s Intel
Inside ‘price fix’ procurement overcharge theft.
In late 1998 Bruzzone discoveries and in 1999 files a defamation suit cv779409 in Santa Clara Superior Court. Settled 2001 attaches debilitating ‘stay-away”
injunction relied by Intel as blacklisting device, and beginning in 2007 corresponding
with the completion of Bruzzone’s Master Thesis, “The premise that Intel is not a
monopoly can only be disproved”, occurring into 2012 Intel attempts restraining order
stings at industry conferences Bruzzone is invited press or analyst seeking work.
Stings are administered by Mr. Steven Lund, Chief of Intel Corp. Security backed by
Dr. Harley Stock. Stings are associated with Semicon West Conference, Data Center
Alliance Conference, most recently in 2014 ARM Tech Conference. At ‘Techcon’
Bruzzone a registered attendee is detained by ARM Holdings / Inc. Mr. Ian Drew’s
110

k

body guards, made to stand an hour in front of Santa Clara Convention Center,
surrounded by police in the face of a gathering crowd while ARM body guards
attempt to locate Drew. Bruzzone is unaware Mr. Drew in vicinity. Restraining
ORDER is secured on 2013 perjury of Ms. Yvonne Carey (now Director of Humans
Resources for Intel) denied Bruzzone cross examination by SCSC Judge Mary
Greenwood another among the fraternal suspects. Judge Richard Loftus of Santa
Clara Superior Criminal dismisses ARM CPC 166 “in name of Justice”. Ms. Carey is
today the Director of Human Resources for Intel Corporation. And that’s how it
works, do Intel dirty work & get a reward typically some form of career promotion in
the network. Silicon Valley enterprise has always worked on this Intel maxim. The
inverse is also true which Bruzzone suffers extremely.
Noteworthy all Intel production secured through discovery during 99-cv779409 is concealed by Bruzzone’s own attorneys past time for supplement questions
and responses. Thereafter settlement is forced onto Bruzzone requiring his psychiatric
treatment by Intel Corp. fixers Dr. Berg, Dr. Gelbart and Dr. Foreman. Where Dr.
Berg first falsifies records and then Dr. Gelbart implements a conditioning regime
attempting to convince Bruzzone none of his espionage, antitrust or retaliatory
observations are real. Bruzzone rejecting this ibansik conditioning regime is mentally
incapacitated. Following this brainwashing attempt Bruzzone is manipulated into
settlement submission thought overseen by Dr. Harley Stock and known to include
Mr. Chris Moropolos an Intel attorney. After which Bruzzone is the subject of further
conditioning under settlement driven into drug addition and second round of
assassination attempts; first 1998 into 1999, and the second round 2001 through 2005.
Ill

Misrepresentations maliciously placing Bruzzone in false light is now the core
of 00865 defamation publicly portrayed “paranoid delusional”, “risk”, said
“dangerous and “risk” by Intel Corp. and ARM Inc. respectively, and “vexatious
litigant” on that Northern California District order of August 18, 2014 secured on
Intel attorney misrepresented case records are insufficient on federal case law. Is
furthered by ARM Inc. who takes that Alsup order secured by Intel on misrepresented
case records to Santa Clara Superior Court May 7, 2015 where ARM Inc. presents the
State CCP § 391(b) claim adding insufficient State court claims, still insufficient, all
of which occur within the four year civil RICO statute of limits.
CLAIM on REMEDIAL PATH ASCERTAINED
Judge Alsup vexatious litigant order of August 18, 2014 on attorneys FRCP
60(b)(3) fraudulent conduct, on Mr. William Alsup 18 U.S.C. 1001(1)(2)(3) scheming
includes Mr. Donato engaged bypassing Clerks random Judge selection to select
himself for 04558, Ms. Hamilton suspect extra-judicial interference because why
would any Judge get involved in conspiracy, although Intel executives publicly admit
paying bribes the entire case matter is subject 42 U.S.C. §§ 1981(a)(b) §
1985(1)(2)(3) consideration where Intel Corp. and ARM Inc. vexatious orders are
VOIDABLE at FRCP 60(b)(4) is Plaintiffs objective in 0865 KJM DB PS. Plaintiff
will secure Mr. Alsup testimony in hearing as judgment, vindicating econ-omic and
punitive harms on Intel Corp and ARM Inc. misrepresenting too falsify vexatious
cause at 15 U.S.C.§§ 1, 15 and 18 U.S.C. §§1962c, 1964c intent to deceive many
Courts.

112

'4

business in the Confederate State of California? Operates under Intel associate
placements control? Emanates from Santa Clara Superior, 6th Appellate, the
attached courtrooms of Judge William Alsup and Judge James Donato?
United States District Court Northern California 31 U.S.C. 3729 federal false
claims action No.l3-cv-03729 is represented by attorney Mr. Kenneth Bauer
sought U.S. attorney intervention on EUCC 37.990 decision that is T286/09
affirmative appeal judgment Intel Inside “avoidable cost”. Test for United
States Attorney intervention dismissed with out prejudice to United States.
Note; following 13-cv-03729 dismissal failing Relator’s test for United
States Attorney intervention, on scienter, Intel Corporation and Judge Alsup
begin their mutual false portrayal of Bruzzone “not relator” and no United
States “qui tarn involvement”. Which is what Intel wants to portray? That
there is no standing non-intervened qui tarn and Bruzzone is “not a relator”.
Yea, Bruzzone, 82 plaintiff and 31 States AGs are really convinced.
Lastly,
USDC individual civil No. 14-cv-01279 pulls qui tam retaliation claims out
of 13-cv-03729. Is re-filed as 01279 and stricken from record by Judge Alusp
on no operative complaint (Doc. 51) portrayed by Judge Alsup as non repre­
sented qui tam in the name of the United States. The error somehow migrates
to the 9th Circuit appeal seeing individual civil as qui tam. In relation 00865,
original 14-cv-01279 is solely criticized by Judge Alsup “not well presented”.
Continuing vexatious framework page 8, at (3) make substantiate findings of
frivolousness or harassment; and (4) tailor order narrowly. Pursuant (3) Plaintiffs
seven separate Motions for Reconsideration all ask Judge Alsup to state what findings
of frivolousness or harassment?

Judge Alsup refuses to oblige Plaintiff his

assessment concerning the granular particulars of vexatious case law pursuant
Bruzzone frivolousness or harassment. In a hearing where Intel associate attorneys
Motion to damn Bruzzone vexatious somehow was never scrutinized for
frivolousness and defendants fraudulent intent to rely as a blacklisting device taking
his civil rights. Judge Alsup determines at Document 88, Order Granting Intel’s
114

Motion, page 10, line 26 “this order makes a substantive finding of harassment in
light of Mr. Bruzzone’s actions. This order finds Mr. Bruzzone has a personal
vendetta against Intel as evidenced by the six actions he has filed in state and federal
court. All of these actions, the earliest dating to 1999, have related to Mr. Bruzzone’s
allegation that Intel has interfered with his “efforts to obtain and sustain employment”
(Faulkner Exh. P). Note, which is the qui tarn retaliation claim re-stated in every
unique evolution of civil complaint somehow “not cognizable”, “potentially not
cognizable”, unintelligible, said merit less and now vexatious and/or frivolous is
rouse? When “the Constitution requires a hearing it requires a fair one, which meets
the prevailing standards of impartiality”, Wong Yang Sung v McGrath 339 U.S. 50
(1950). Judge Alsup continues at page 11, “Bruzzone claims are frivolous, harassing,
and brought with no objective good faith expectation of prevailing”; is presumptive
error, erroneous on fact on law.
Bruzzone again here in E.D, Intel Corporation knows their Motion for
Vexatious damnation lacked sufficient cause, “patently without merit”, (and so does
Judge Alsup at 28 U.S.C. § 455(a)(b)(l)(5)(iv)). And if heard in Eastern District on
Intel Motion today, lacks sufficiency revealing Intel Corporation’s fraudulent
representation in said 42 U.S.C. § 1985 (1)(2)(3) conspiracy to deprive civil rights
furthered by ARM Holdings pic / ARM Inc. in State Court. If Intel Corp. and ARM
Inc. and political placement’s get rid of the “relator’, United States Attorney designee
and Congressional advocate of “the people” Constitution 9th, lawful class losses its
federal witness and Intel Corporation escape’s Intel Inside robberies and the associate
frauds maliciously designed to conceal and obstruct the administration of justice and
115

the mechanic operations of justice process. Plaintiffs antitrust and civil RICO claims
on civil harms of attempted disqualification are factually sufficient and meritorious.
As an expert in these Intel matters, economic espionage intent to disable
commerce and invention, the white collar racketeering environment, attributes and
circumstance are not well understood because investigators and oversight in this case
Judges also lack training on direct experience. In the overalls of this case matter has
presented hurdles to Federal Bureau of Investigation and homeland intelligence
communities, Bruzzone believes may be training issues, so how can Judges be
expected to understand Bruzzone has stated meritorious RICO and criminal antitrust
claims for 21 years. Judge Alsup exemplifies this void on occasions so stating at
Document 88 Motion to Declare Vexatious page 11 line 21 through 22, “His claims in
this action (01279) are numerous and inordinate, seeming to arise from a bizarre
belief that Intel has allegedly retaliated against him . . .”. In dismissal of qui tarn test
for United States Attorney intervention 03729 Document 36 at page 7, line 6
Bruzzone commenting “I’m very much like Mr. Markopolos in the SEC action. You
can just consider me the same type of individual”. Judge Alsup responds at line 8,
“Who?

I’m sorry, I don’t remember that name. Who?

Bruzzone at line 10;

“Markopolos the gentlemen who informed Securities Exchange Commission about
the ‘Madoff Ponzi Scheme’ years before the case actually came to be and was
substantially retaliated [against] as a result. I am the exact — situation is very similar
in my role as a discovery technical assistant for the Federal Trade Commission, which
is now at 190 months (Note; date of hearing February 27, 2014)

116

Maybe Judge Alsup does not get around much? In a maritime case I observed
he had difficulty understanding what the starboard side of a ship was and an attorney
had to explain that to him using a line drawing. In a contract matter I’m not sure if
Judge Alsup knows what a qui tarn contract is nor its federal statute requirements and
obligations. I’m not sure how many Judges of Northern District are experienced in
white collar racketeering and economic espionage case matters where Judge Alsup
was unaware of Mr. Harry Markopolos. Nor am I aware in Eastern District beyond
claims 1) maliciously framed vexatious on insufficient case casue, and, 2) defamed on
concert slander and libel, 3) maliciously blacklisted in industry, trade and commerce
defendants paid from and to conceal Intel Inside price fix stolen monies.
What I do know is this case, one of the most prominent RICO and urgent
antitrust and civil rights matters in the United States, raises intriguing questions on
claimed facts and law, for determination, the matter is not ripe for Appeal on no
legitimate adjudication, the matter is here in Eastern District. Kennedy library
chronicles E.D. involvement in precedent setting matters, “where hearing can prevent
erroneous government deprivation of the private rights, in the government interest,
and in the public’s interest” Morrissey v Brewer 408 U.S. 471 (1972); written notice,
claimed violation, disclosure of evidence, opportunity to be heard in person, confront
and cross examine, neutral and detached hearing body. “[D]ue process is flexible and
calls for procedural protections as the particular situation demands” Mathews v
Eldridge 408 U.S. 471, 408 U.S. 481 (1976).
A Party . . . must affirmatively demonstrate by specific factual allegations that
there is a genuine issue of material fact for trial Celotex Corp., v Catrett, All U.S.
117

pursuant that 1993 United States Department of Justice order of compliance waiting
discovery in this case matter. Many Intel monopoly harms to nation, industry, States,
commerce, consumers, Plaintiff are validated on false certifications including at 18
U.S.C. § 1001 and 1962c.
Bruzzone is enlisted as FTC v Intel Docket 9288 discovery aid by Mr. Robert
Cook attorney of the Bureau of Competition in May 1998. In late 2008 Federal Trade
Commission Chairman Mr. William Kovacic substitute’s Bruzzone in as technical
assistant and discovery aid supporting v Intel Docket 9341. Bruzzone presently
continues as Docket 9341 consent order monitor following two phone conversations
in 2010 with Docket 9341 Chief Litigator Mr. Robbie Robertson that Bruzzone
continue on no others qualified to do so. Clayton ACT claim is valid cause of action
in matter. Intel Corp. and suspect educational institution’s are attacking the credibility
of Bruzzone work product for federal government in 15 U.S.C. § 5 investigation as
discovery will verify. Discovery will verify educational institutional INTC stock
shares ownership and extend to assessing supply signal cipher stock rig participation.
The earlier Docket 9288 parallels Bruzzone California Department of Justice
lettered assignment to validate Intel Inside® price fix having identified on systems
structure and law Intel “horizontal combination on program guide” in March / April
1999. Bruzzone is then lettered in March 2000 by California State Assistant Attorney
General Mr. Richard Frank to continue his work with Assistant Attorney General
Antitrust Mr. Thomas Greene and does proceed as retaliation intensifies where Mr.
Green begins to avoid Bruzzone by 2001. Bruzzone is let go from CDOJ and
documents negligence by then Attorney General Mr. William Lockyer suspect Intel
119

intentional misrepresentation, on January 2007, and is then blacklisted from the
CDOJ entirely by Chief Deputy AG Mr. James Hume in May 2007. After which
Bruzzone entirely focuses his efforts cultivating awareness of Intel Inside price fix
through States AGs beyond California whom he had been engaged since 1999,
includes U.S. Senate, before being placed as Docket 9341 discovery aid by then FTC
Chair Kovacic following antitrust inquiry by Congressman Bobby Rush, of Illinois,
then Chairman House Committee Commerce. Bruzzone referral to the FTC Bureau of
Competition is supported by Professor Mr. Frederic Scherer of Harvard’s Kennedy
School, an FTC consulting economist aware of Bruzzone nascent production
economic work supporting FTC v Intel Docket 9288. Supporting Docket 9341
Bruzzone is both systems and Intel production economics analyst if not lead and
paralegal engaged in law research establishing case law proofs of the 15 U.S.C § 1,
associated 18 U.S.C §§ 1956, 1962c infractions and twenty sum odd additional
federal statue violations and questions addressing obstruction, tampering and
espionage; 15 U.S.C §§ 1, 2 and 18 U.S.C. §§ 2, 3, 241, 242, 371, 641, 1001, 1341,
1503, 1505, 1510, 1511, 1512, 1513, 1516, 1519, 1956(A)(i) promotion, (A)(ii) evade
taxes, (B)(i) concealment, (B)(ii) avoid transaction reports requirements (a)(2)
international, (a)(3) sting, (h) conspiracy, 1957, 1961, 1962c, 1964c, 1831 & 2382
questions, 31 USC § 3729 theft from federal government.
Certainly some of those observations are correct and one has to wonder what
the U.S. Attorney of Northern California District is actually up to? Are also detailed
by Bruzzone too the United States Department of Justice, FBI, State AGs and
Congress.
120

THE INTEL INSIDE® PRICE FIX CLAIM
Bruzzone who is Federal Trade Commission discovery aid enlisted by Federal
Trade Commission and California Department of Justice to validate Intel Inside price
fix has done so. Thereafter, price fix is affirmed by European Union Competition
Commission May 2009 and again affirmed on appeal June 2014. Pursuant FTC v Intel
Corp. Dkt 9341 of November 2010, aspects of Intel Inside program techniques
including those identified by Bruzzone are now regulated by the Federal Trade
Commission whom Bruzzone is monitor. Bruzzone and hundreds of millions of
individuals remain robbed by Intel Corp. and cartel dealing group is a claim, but to
date, not incorporated into 00865. Bruzzone original and 1st Amended 00865 follow
the directions of Judge William Alsup implicitly pursuant the dismissal of qui tarn 3cv-03729 for want of attorney on February 27, 2014. From hearing transcript; “what
starts out as an action on behalf of Untied States as the plaintiff cannot be
transmogrified into an individual action. If Mr. Bruzzone wants to file an individual
action, he’s got to start over again with a brand new lawsuit because it’s a different
animal.” This is what Bruzzone has attempted to do since February 27, 2014. By
pulling retaliation claims out of qui tarn 03729, that is not the non intervened qui tarn
08-cv-04169 and its United States Attorney amended 09-cv-00679 waiting attorney
representation and / or federal intervention.
Following 09-cv-00679, 13-cv-03729 is an attorney represented test for U.S.
Attorney intervention parallel EUCC affirmation of Intel Inside® price fix pursuant
appeal decision of June 2014. Despite EU affirmation United States Attorney
continues to decline intervention.
121

All attempts to do what Judge Alsup bequest Bruzzone do are blocked by
Judge Alsup and judicial associates of Northern California District where suspect
“color of law” interference is discoverable. Law enforcement neglect, and negligence
over 20 years, including by the United States attorney of Northern California District
s documented in Bruzzone Congress reports are discoverable.
ON SHORT and PLAIN STATEMENT
Bruzzone for 21 years is systematically robbed by defendants Intel Inside price
fix, for documenting as federal & States servant to validate Intel Inside price fix on
systems and case law, his career in technology product marketing on defendants
including but not limited to Intel Corporation executives, business associates and
agents Intel CEO Dr. Andrew Grove, Intel detective Mr. Leonard Balli who is CEO
Dr. Craig Barrett’s body guard, Dr. Harley Stock affiliate of the FBI and Secret
Service is consultant to Intel Corp., Mr. Paolo Gargini concealed as “Doe” Intel
representative to Int’l Technology Roadmap for Semiconductors, Mr. Ian Drew
former EVP & Chief Marketing Officer ARM Holdings pic. / Inc. and Intel Corp.
General Manager Russia Operations reporting to Intel Corporation CEO and Chief
Marketing Officer Mr. Paul Otellini, Ms. Yvonne Carey former ARM Director
Merger and Acquisitions now Director of Human Resources for Intel Corp. Intel
security detail is known to include Mr. David Small, Mr. Mark West, Mr. Steve Lund,
Mr. Rafael de los Santos, Mr. Abel Tenorio, contractor Paragon Security and others
known but unnamed are engaged in a 21 year defamation of Plaintiff caught at 18
U.S.C.§ 3 accessories after the fact portraying Bruzzone observations of industrial
espionage, racketeering and antitrust violations by Intel Corporation employees and
122

business agents the “product of paranoid delusion”. Defendants disseminate their
portrayals most of which are hearsay throughout industry paints Bruzzone
“dangerous” and “risk”. All do conceal racketeering, organized crime infiltration into
their enterprise operations, industrial espionages and through defamatory acts reverse
onto this plaintiff include suspect larcenies albeit before 1997 tolling might be a
federal prosecutor’s criminal RICO charge. Are intent on conduct to cause plaintiffs
industry and legal service market boycott in trade and interstate commerce causes
professional and reputation harms, and mental anguish, is systematically intended and
has caused plaintiffs financial ruin. As defendant’s example to others’ the power of
their associate network engaged in illicit cartel operations, concealing illicit cartel
operations, all inherent damages thereof.
INTEL INSIDE® PRICE FIX RECOVERY CLAIM
Pursuant cognizable claims plainly stated, Bruzzone as Congressional
designee at 31 U.S.C. § 3730(e)(A)(4) and auditor at 15 U.S.C. §§ 5, 15, 22 and 9th
amendment retained by the people (Congress) has addressed if upon filing a hybrid of
the FTC Docket 9341 and EUCC 37.990 complaints, with or without the individual
retaliation claim, and because that complaint is not a qui tarn but “for the people”
lawful class at 42 U.S.C.§1981(a)(b), has not previously and could not be defeated on
FRCP 12(b)(6) leaves with Plaintiff responsibility to recovery Intel Inside® price fix
for the people on four year civil exact amount known falsely certified “cooperative
advertising44, and “cost to processor” in Intel Corporation 2015, 2016, 2017, 2018 and
all prior annual reports & 10K. The four year RICO recovery sum is $6.2 B.

123

On the continuous predicate act of Intel Inside robbery the recovery sum is
$41,567,500,000.
Intel and associates have essentially bankrupted this plaintiff are indirectly
stripping Bruzzone and his family of properties. Either of the Intel Inside recoveries,
on four year civil or on continuous acts, are subject treble antitrust award on punitive
harms. Following directs court to associated Intel Inside price fix complaints from
which Bruzzone can glean; 00865 KLM. DB, PS continues to be amendable;
Bruzzone State AG standard complaint for Judge Barnes review is here;
https://seekingalpha.com/instablog/5030701-mike-bruzzone/5200413-intel-i
nside- price-fix-recovery-for-plaintiffs-ags-standard-complaint
Note; this is the 2011 and current simplified and improved FTC 9341
complaint.
Bruzzone case orientation with case law for Judge Barnes review is here;
https ://seekingalpha. com/instablog/5030701 -mike-bruzzone/5203055-intelinside- federal-orientation-academic-treatise
FTC original Docket 9341 administrative complaint that State AG
replaces;
https://www.ftc.gov/sites/default/files/documents/cases/091216intelcmpt.pdf
EUCC v Intel Corp. May 2009 decision is here:
https://ec.europa.eu/competition/antitrust/cases/dec_docs/37990/37990_3581_
18.pdf
Pertinent paragraphs in EUCC 37.990 decision document;
Paragraph 1123

“Professor concludes that the Intel Inside program as
well as certain Bonuses and commissions are avoidable”.

Paragraph 1130

“Findings contribute to professors conclusion that
bonuses and commissions and Intel Inside funding are
the only avoidable components of the Marketing and
Sales expenditures.
124

Paragraph 1139

“the Intel Inside program contributes to the avoidable
cost by xx% of gross ASP of x86 CPU (2002-2005)

Paragraph 1141

“Based on this, the Commission concludes that the Intel
Inside program itself contributes to xx% of the gross
ASP of Dell. There is no reason to assume that the
figure would be any different for HP or any other large
OEMs.

Paragraph 1142

“Intel staff used to verify the marketing expenditures
paid by OEMs qualify for reimbursements are not
included in analysis. This omission leads the estimated
avoidable cost to be understated”.
Notation: Intel Inside consists of a regulating OEM
charge and Intel direct matched kickback for metering
final sale. Bruzzone only proposes recovery of direct
matched kickback however has estimated the sum of
both consumer cost charges.

Paragraph 1143

“The Commission has analyzed the arguments in
Professors reports ... and concludes they understate the
avoidable costs leads the Commission to conclude that
Sales and Marketing expenditures contribute to
avoidable cost as outlined in the table 20”.
Notation; Bruzzone supporting Table 20 follows.

Paragraph 1146

“The average Intel Inside funding per unit... Is entirely
avoidable, corresponds to about xx% of the average
Intel Inside funding per unit over the entire sales”.
Notation; xx% see Bruzzone FTC 9341 cost table at
Column 4 and associated consumer cost Column 6

Bruzzone FTC Docket 9341 Intel Inside® annual per unit cost table
Year

Annual Ad Expense

Annual Sales Rev

Ad % Rev

MPU Shipments Yr

$Ad/MPU

1993

$325,000,000

$8,872,000,000

0.0366

33,680,000

$9.65

1994

$459,000,000

$11,521,000,000

0.0398

44,700,000

$10.27

1995

$654,000,000

$16,202,000,000

0.0404

54,870,000

$11.92

1996

$974,000,000

$20,847,000,000

0.0467

70,790,000

$13.76

1997

$1,200,000,000

$25,070,000,000

0.0479

85,330,000

$14.06

1998

$1,300,000,000

$26,273,000,000

0.0495

90,960,000

$14.29

1999

$1,700,000,000

$29,389,000,000

0.0578

115,800,000

$14.68

125

2000

$2,000,000,000

$33,726,000,000

0.0593

139,500,000

$14.34

2001

$1,600,000,000

$26,539,000,000

0.0603

154,300,000

$10.37

2002

$1,700,000,000

$26,764,000,000

0.0635

167,500,000

$10.15
$10.59

2003

$1,800,000,000

$30,141,000,000

0.0597

170,000,000

2004

$2,100,000,000

$34,209,000,000

0.0614

175,000,000

$12.00

2005

$2,600,000,000

$38,826,000,000

0.0670

177,000,000

$14.69

2006

$2,300,000,000

$35,382,000,000

0.0650

180,000,000

$12.78

2007

$1,900,000,000

$38,300,000,000

0.0496

185,000,000

$10.27

2008

$1,890,000,000

$37,586,000,000

0.0503

190,000,000

$9.95

2009

$1,400,000,000

35,127,000,000

0.0399

194,750,000

$7.19

2010

$1,800,000,000

42,623,000,000

0.0422

227,857,500

$7.90

2011

$2,100,000,000

59,999,000,000

0.0350

236,971,800

$8.86

2012

$1,865,500,000

53,300,000,000

0.0350

258,299,262

$7.22

2013

$1,900,000,000

53,300,000,000

0.0356

286,350,000

$6.64

2014

$1,800,000,000

55,870,000,000

0.0322

292,167,207

$6.16

2015

$1,800,000,000

55,355,000,000

0.0325

292,167,207

$6.16

2016

$1,800,000,000

59,400,000,000

0.0303

292,167,207

$6.16

2017

$1,400,000,000

$62,761,000,000

0.0223

292,167,207

$4.79

2018

$1,200,000,000

$70,848,000,000

0.0169

292,167,207

$4.11

Total

$41,567,500,000

$988,230,000,000

0.0464%
Average

4,699,494,597

$9.96
Average

What professional career as a contributing member of society has Intel Corp.
and associates left this plaintiff?
professional

Their system of follies has made this my

career including too vindicate myself from their lies

and

misrepresentations. No statement Intel infers as “found fact” in sworn declarations or
case pleadings has ever been heard, the vast majority denied confrontation and
examination by the presiding Judge whether cognizable attorney complaint, pro se
complaint, defendant motions for restraining order, or vexatious determination all of
which are secured or furthered presenting insufficient grounds whether federal case
law or on State civil procedure. Like in any boycott association / disassociation on
preferred speech are at issue. Contract taking is at issue. Substantive and procedural
due process Bruzzone and “Lawful Class” equal protection are at issue. Framed
vexatious is a claim on fraudulent misrepresentation & intentional deceit. Denial of
Bruzzone and “Lawful Class” civil right’s is the question.
126

CONCLUSION
Bruzzone v Intel Corporation and ARM Holdings pic / ARM Inc. 2:18-cv0865 KJM DM PS is meritorious at 15 U.S.C. § 1 defendants intentional
misrepresentation are meant to damn Plaintiff, cause obloquy, harm financially and
promote industry group and legal market service boycott disrupting the administration
of Justice. Defendants are successful in those torts. Further on concert racketeering,
18 USC § 1962c cognizable § 1964c; “defendants have not established beyond
doubt that the plaintiff can prove no set of facts in support of his claim[s] for
relief’; Conley v Gibson, 355 U.S. 41, 45 (1957). Pursuant Iqbal quote Twombly,
engaged in concealment of Intel Inside® price fix theft attacking credibility, work
product, character of its federal witness Intel executives, associates and agents are
paid from and to conceal stolen monies associated with 4,699,494,597 Intel Inside
price fix robberies valued $9.96 each occurring along highways of interstate
commerce 1993 through 2018 year end and thought to continue in some ways. There
is no way Intel Corp. can disprove these claims on Bruzzone individual proofs and
inter nation case investigative discoveries stuck in their 30 year sophistry or no
monopoly and consumer harms.
Allow this matter to move forward and Intel will begin settlement
negotiations around many mutually beneficial remedial activities. Again Bruzzone is
not opposed to negotiating his own civil retaliation settlement, through the Intel
Corporation Contract Dispute Committee, removing that claim from qui tarn thus to
streamline “[for] every judgment or decision so rendered is final and conclusive upon

127

the parties to it, unless reversed by writ, error or appeal, or impeached for fraud”,
Foltz v Saint Louis & S.F. Ry., 60 Fed 316, 318 (C.C.A 8th 1894).
Bruzzone declares under penalty of perjury all factual allegations made herein
are true to the best of Plaintiff s knowledge. That this document and this declaration
are not truly an Objection to the FINDINGS and RECOMMENDATIONS of Judge
Barnes, but a continuing clarification validating 00865 meritorious claims, complaint
amendable on this pro se’s ever evolving ability to annunciate on facts on law
“defendants have not established beyond doubt that the plaintiff can prove no set of
facts”, and “following the simple guide of rule 8(f) now (e) “that all pleadings shall be
construed to do substantial justice” and “less stringent reading than [a pleading]
drafted by a lawyer”; Conley v Gibson, 355 U.S. 41, 45, 48 (1957).
“Constitutional provisions for the security of persons and property rights
should be liberally construed “. . .“It is the duty of Courts to be Watchful for the
Constitutional Rights

of the Citizens, and against any stealthy encroachments

thereon. The motto should be Obsta Principiis”, Boyd v United, 116 U.S. 616 at 634
(1885) as “Constitutional ‘rights’ would be of little value if they could be indirectly
denied” Juliard v Geeman, 110 U.S. 421 (1884).
Filed in Eastern District of California
December 30, 2019
Is/
Michael Bruzzone, Representing Seff-GengTess at Constitution 9th,
“lawful” Intel Inside price fix recovery class at 42 U.S.C. § 1981(a)(b)
FBI Original Source of Intel Network RICO in 1996
FTC Invited Field Report Docket 9288; 1998 - 2000
CDOJ and NYDOJ First to Report Intel Section 1 Violation in 1998
CDOJ Lettered to Work Report, Intel 15 USC 1 Violation in 2000
SEC Notice INTC Stock Market Rig, Accounts Fraud; 2007 - 2018
U.S. Attorney Northern District FCA Relator; 2008 and current
FTC Witness Analyst v Intel Corp. Docket 9341; 2009 and current
Court of Appeal Fed. Circuit acknowledge 31 USC 3730 Relator; 2014

128

